<html>
<title> - [H.A.S.C. No. 112-117]RECENT DEVELOPMENTS IN AFGHANISTAN</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                         [H.A.S.C. No. 112-117]
 
                   RECENT DEVELOPMENTS IN AFGHANISTAN

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             MARCH 20, 2012


                                     
[GRAPHIC] [TIFF OMITTED] CONGRESS




                  U.S. GOVERNMENT PRINTING OFFICE
73-789                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                   HOUSE COMMITTEE ON ARMED SERVICES
                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               CHELLIE PINGREE, Maine
ROB WITTMAN, Virginia                LARRY KISSELL, North Carolina
DUNCAN HUNTER, California            MARTIN HEINRICH, New Mexico
JOHN C. FLEMING, M.D., Louisiana     BILL OWENS, New York
MIKE COFFMAN, Colorado               JOHN R. GARAMENDI, California
TOM ROONEY, Florida                  MARK S. CRITZ, Pennsylvania
TODD RUSSELL PLATTS, Pennsylvania    TIM RYAN, Ohio
SCOTT RIGELL, Virginia               C.A. DUTCH RUPPERSBERGER, Maryland
CHRIS GIBSON, New York               HANK JOHNSON, Georgia
VICKY HARTZLER, Missouri             BETTY SUTTON, Ohio
JOE HECK, Nevada                     COLLEEN HANABUSA, Hawaii
BOBBY SCHILLING, Illinois            KATHLEEN C. HOCHUL, New York
JON RUNYAN, New Jersey               JACKIE SPEIER, California
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
                 Alex Gallo, Professional Staff Member
                Michael Casey, Professional Staff Member
                    Lauren Hauhn, Research Assistant



                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Tuesday, March 20, 2012, Recent Developments in Afghanistan......     1

Appendix:

Tuesday, March 20, 2012..........................................    51
                              ----------                              

                        TUESDAY, MARCH 20, 2012
                   RECENT DEVELOPMENTS IN AFGHANISTAN
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Allen, Gen John, USMC, Commander, International Security 
  Assistance Force--Afghanistan..................................     7
Miller, Dr. James N., Jr., Acting Under Secretary of Defense for 
  Policy, U.S. Department of Defense.............................     4

                                APPENDIX

Prepared Statements:

    Allen, Gen John..............................................    67
    McKeon, Hon. Howard P. ``Buck''..............................    55
    Miller, Dr. James N., Jr.....................................    59
    Smith, Hon. Adam.............................................    57

Documents Submitted for the Record:

    ISAF Monthly Data: Trends through January 2012, Submitted by 
      Gen John Allen.............................................    77

Witness Responses to Questions Asked During the Hearing:

    Mr. Conaway..................................................    86
    Mr. Critz....................................................    86
    Mrs. Davis...................................................    85
    Ms. Tsongas..................................................    86
    Mr. Turner and Mr. Critz.....................................    85

Questions Submitted by Members Post Hearing:

    Mr. Critz....................................................    96
    Mr. Langevin.................................................    91
    Mr. Reyes....................................................    91
    Ms. Tsongas..................................................    93
    Mr. Turner...................................................    92
    Mr. Wittman..................................................    94
    Mr. Young....................................................    96
                   RECENT DEVELOPMENTS IN AFGHANISTAN

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Tuesday, March 20, 2012.
    The committee met, pursuant to call, at 10:00 a.m. in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Good morning, ladies and gentlemen.
    The House Armed Services Committee meets today to receive 
testimony from the Acting Under Secretary of Defense for 
Policy, Dr. James Miller, and the Commander of the 
International Security and Assistance Force in Afghanistan, 
General John Allen.
    Gentlemen, thank you for your distinguished service to our 
Nation, especially during this critical moment in Afghanistan. 
And thank you for joining us here today.
    The last year has been a consequential time for coalition 
efforts in Afghanistan. During this time period, with the surge 
forces in place, United States and NATO [North Atlantic Treaty 
Organization] forces have conducted major operations to push 
back the Taliban in the south of Afghanistan, launched 
operations from Afghanistan to kill Osama bin Laden and further 
disrupt Al Qaeda, trained thousands of Afghan security forces 
so that they can secure their territory from terrorist and 
insurgent groups, and return countless numbers of civilians to 
school and to work.
    However, in the last few weeks, the impressive gains that 
the United States and NATO were making in Afghanistan have been 
called into question by some, due to the actions of a rogue 
few. Some Afghan soldiers have taken up arms against ISAF 
[International Security and Assistance Force] soldiers, which 
could diminish trust among forces that are supposed to be 
partnered.
    A sober assessment, however, shows that partnering is 
valuable and necessary; there are steps that can be taken to 
minimize such incidents; and that these criminal actions are 
relatively isolated.
    Moreover, the horrific incident of a U.S. Army staff 
sergeant who allegedly took up arms against Afghan civilians 
also is both isolated and a criminal act that should be 
prosecuted to the full extent of the law.
    These exceptional incidents are not reflective of the 
hundreds of thousands of U.S. soldiers, sailors, airmen, and 
marines who have honorably served in Afghanistan, nor are they 
reflective of the many thousands of Afghan soldiers who are 
being trained and are helping to secure Afghanistan today.
    Additionally, I remain very concerned about the President's 
decision last summer to speed up withdrawal of the surge troops 
from Afghanistan, as well as his original announcement in his 
speech at West Point for a date certain in 2014 to withdraw all 
U.S. combat forces.
    These decisions by the President have made it increasingly 
difficult to build up trust and confidence with the Afghan 
institutions that will ultimately ensure that the security and 
political gains by U.S. and NATO efforts are sustained into the 
future.
    Moreover, with our eyes at the exits, I am uncertain 
whether we will be able to achieve the key tenets of the 
President's own strategy due to the constraints that the 
President himself has put in place.
    For example, it has been reported in the media that the 
U.S. and Afghan governments are attempting to achieve a 
negotiated solution with the Taliban, and yet the Taliban 
continue to operate with impunity out of Pakistan because they 
already know when we will be leaving, and Pakistan has been 
unwilling or unable to address those safe havens.
    Furthermore, due to the President's decision to begin 
withdrawing the surge forces early, we increased the risk to 
our forces to effectively address the second part of the 
Afghanistan campaign plan, shifting the main effort to eastern 
Afghanistan and applying military pressure on the Haqqani 
network, who are responsible for the most dramatic and lethal 
attacks in Afghanistan.
    What is more, in the absence of sustained public opinion to 
support the mission in Afghanistan, from the White House on 
down, many have begun to question what we are fighting for.
    With friend and foe alike knowing that the U.S. is heading 
for the exits, our silence is likely viewed as a preamble to 
retreat, and in warfare, when the mission becomes redeployment 
rather than mission success, the outcome can quickly become 
disorderly.
    General Allen, I have total confidence in you and your 
command. The challenge in Afghanistan continues to be great, 
but I am certain that we can achieve the United States' core 
strategic objectives by resolving to provide you with the time 
and resources you need to be successful.
    I think this hearing today is extremely timely, with the 
American people needing to hear from you on what is really 
going on over there on the ground.
    I look forward to your testimony and the insights into the 
challenges and the way forward in Afghanistan.
    Ranking Member Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 55.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here, General Allen, Dr. 
Miller, I appreciate your leadership and support. And I want to 
start by agreeing with the chairman's opening remarks about the 
progress that has been made in Afghanistan since the surge was 
announced. There has been considerable progress made throughout 
the country, and I am aware the progress made was because of 
the bravery, leadership and considerable efforts of our troops 
and our ISAF partners.
    We have pushed the Taliban back, particularly in the south. 
Those of us who have traveled there regularly could tangibly 
see the improvements. The villages that we are able to walk 
through that were major combat zones just a few months before 
is evidence of the hard work and the progress that is being 
made.
    Perhaps as important as the security gains, you are seeing 
on the district and the provincial level significant 
improvement in governance. One of the things that I was 
impressed about the last time I was there is I saw a great deal 
more USAID [United States Agency for International 
Development], State Department, people on the judiciary side. 
Basically the basic building blocks of governance were being 
put in place. And that, too, gives sustainability.
    Unquestionably, we have made enormous progress in the last 
couple of years towards giving the Afghan government and the 
Afghan people the chance to have a stable and lasting 
government.
    Now, progress should not underestimate the challenge that 
remains. Afghanistan is a very difficult country. It is very 
poor. Its economy is very difficult. They have a history now of 
well over 30 years of civil war and the insurgent groups are 
still present. We can't imagine that we are ever going to leave 
a perfectly stable, perfect democracy in Afghanistan.
    But the progress has been made, and I think the thing that 
we can all feel good about is we have a much, much better 
chance that when we leave there will be a stable government 
that will be able to stand and stop the Taliban from returning 
to power, and we must always remember that that was the goal 
that the president clearly stated; you know, defeat and 
dismantle Al Qaeda and make sure they and their Taliban allies 
cannot come back.
    We are much further along the road to achieving that goal 
now than we were 2 years ago, and that is due in large part to 
the efforts of our troops, and we must thank them for that.
    But the bottom line is, we are not going to stay there 
forever. I don't think anybody would say that we should. And if 
we are not going to stay there forever then we need a plan to 
leave and to leave responsibly, and that is what was first put 
in place by the President in 2009 and then solidified at the 
Lisbon Conference in 2010 with NATO. We have what I think is a 
realistic plan.
    We simply cannot say, ``Well, we are never going to leave. 
We are going to stay because we are fearful that if people 
think we are going to leave that therefore gives them 
advantage.'' Truth is, it also gives them an advantage if we 
leave it in the minds of the Afghan people that we are never 
going to leave.
    The effect of that is, number one, it undermines the 
confidence in the Karzai government, the confidence in the 
district and provincial governments because they do not look 
like governments that can stand on their own. They look like 
governments that will be forever dependent upon foreign forces. 
It also gives the Taliban a very strong propaganda argument 
that that government is but a prop for a foreign occupying 
force, and that, too, will fuel the insurgency. We have to 
balance that out.
    And also we have to understand that having well over 
130,000 foreign troops in a country does cause destabilizing 
effects. I mean, imagine in your own community if every day you 
had foreign troops rolling down the streets as if they own the 
place.
    We need to get to the point where we turn this back over to 
the Afghan people as soon as we responsibly can, and the 
progress that we have made gives us the opportunity to do that. 
But to simply say that, you know, we are going to stay forever 
if something goes wrong undermines that very plan.
    So it is my hope, General Allen, Dr. Miller, that you will 
lay out for us how we are making progress on that, and as we go 
forward, how we are going to make that responsible transition 
that I think everybody in this room wants.
    We want our troops home. We want the Afghan people back in 
charge of their own security, back in charge of their own 
government. That is where we want to get. The path is not easy, 
but it is one we must go down. And I commend both of you for 
the progress that we have made. And I look forward to hearing 
about how we can complete that mission and bring our troops 
home.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on Page 57.]
    The Chairman. Thank you.
    Dr. Miller.

 STATEMENT OF DR. JAMES N. MILLER, JR., ACTING UNDER SECRETARY 
       OF DEFENSE FOR POLICY, U.S. DEPARTMENT OF DEFENSE

    Dr. Miller. Chairman McKeon, Ranking Member Smith, Members 
of the committee, thank you for inviting me to testify today. I 
am very pleased and honored to be here with our outstanding 
commander in Afghanistan, General John Allen.
    Mr. Chairman, I ask that my full remarks be entered into 
the record and I would like to summarize them.
    The Chairman. Without objection, so ordered.
    Could you pull the mike just a little bit closer please?
    Dr. Miller. Mr. Chairman, the United States' objectives in 
Afghanistan remain to deny safe haven to Al Qaeda and to deny 
the Taliban the ability to overthrow the Afghan government. 
This Administration is committed to meeting these core 
objectives, and while we have faced serious challenges, our 
strategy is succeeding.
    Our counterterrorism efforts against Al Qaeda have been 
extremely successful. Although the job is not finished, there 
is no doubt that we have severely degraded Al Qaeda's capacity. 
As a result of the surge launched in 2009, we have broken and 
reversed Taliban momentum in Afghanistan and the Afghan 
National Security Forces are increasingly capable and 
increasingly in the lead.
    Mr. Chairman, our forces are performing extremely well, as 
I saw firsthand in a trip to Afghanistan less than 2 weeks ago. 
We are well into a process of transition to ANSF [Afghan 
National Security Forces] leadership, as agreed to at the 2010 
NATO Lisbon summit. In fact, today almost 50 percent of Afghans 
already live in areas that have begun the transition process to 
ANSF lead.
    As an interim milestone, at some point in 2013, the ANSF 
will be in the lead for providing security across Afghanistan. 
At that time, U.S. and coalition forces will be in a support 
role, which will take a number of forms. This includes U.S. and 
coalition forces partnered with Afghan units, as is already 
occurring in many places today, and it will include the smaller 
footprint associated with U.S. and coalition forces in a train, 
advise, and assist role.
    By the end of 2014, the ANSF will be responsible for the 
security of Afghanistan. By that time, U.S. and coalition 
forces will have moved to a much smaller presence focused on 
counterterrorism and on training, advising, and assisting 
Afghan forces.
    Mr. Chairman, there is no doubt that the Afghanistan war 
has been a tough fight and the last several weeks have been 
particularly difficult.
    The inappropriate handling of Korans at Bagram Air Base was 
an error that, while unintentional, sent precisely the wrong 
signal. This unfortunate act stands in stark contrast to the 
many years during which U.S. forces have demonstrated deep 
respect for the religious practices of the Afghan people.
    Even more recently, the Afghans and we have had to respond 
to the horrific killings of 16 Afghan civilians in Panjwai 
district, Kandahar. The Department of Defense is conducting a 
full investigation of this senseless act. As you know, a 
suspect is now in custody and is at Fort Leavenworth, Kansas. 
Justice will be done and anyone responsible will be held 
accountable.
    We have also been challenged in recent weeks by attacks by 
Afghan personnel against U.S. and coalition forces, so-called 
``green-on-blue'' attacks. We will have to work through these 
incidents and these challenges, as President Obama and 
Secretary Panetta have discussed in the last week with 
President Karzai. But it is critical that these tragic 
occurrences not blind us to the significant progress we have 
made. I would like to give some examples.
    From 2010 to 2011, enemy-initiated attacks in Afghanistan 
were down 9 percent. This trend has continued into 2012. For 
January and February this year, enemy-initiated attacks are 
down a further 22 percent from 2011 levels for the same months.
    In October 2008, there were only 140,000 Afghans in the 
ANSF. Today, there are approximately 330,000 and we expect to 
reach our goal of 352,000 ANSF ahead of the October, 2012 
target date. Today, almost 90 percent of coalition operations 
in Afghanistan are carried out in partnership with the ANSF. 
And the ANSF is in the lead for more than 40 percent of 
operations.
    As you know, we are negotiating a strategic partnership 
between the United States and Afghanistan that will frame our 
enduring relationship. This strategic partnership will 
demonstrate that we learned the lessons from 1989 when our 
abrupt departure left our friends confused and our enemies 
emboldened.
    In partnership with President Karzai and the Afghan 
government, we recently completed a crucial milestone when 
General Allen cosigned a Memorandum of Understanding on 
detention operations with Defense Minister Wardak.
    We are also working with the Afghans on a Memorandum of 
Understanding on special operations which, when completed, will 
further strengthen our partnership.
    Concluding a strategic partnership will send a clear signal 
that the United States remains and will remain committed to 
Afghan security. Such an assurance must continue beyond our 
planned transition in 2014.
    As President Obama said in his State of the Union address, 
``We will build an enduring partnership with Afghanistan so 
that it is never again a source of attacks against America.''
    The need for a long-term commitment extends to our 
coalition partners as well. As NATO Secretary General Rasmussen 
said in December, ``Our commitment does not end with 
transition. We will finish the job to help create a secure 
Afghanistan for our shared security.''
    Achieving a durable peace in Afghanistan will require some 
form of reconciliation among Afghans. It is by no means certain 
that this effort will bear fruit in the near term, but it is 
very much in our national security interest to try.
    As Secretary Clinton has said, ``Any negotiated outcome 
with insurgents must meet our unambiguous red lines for 
reconciliation. Insurgents must, one, renounce violence; two, 
break all ties with Al Qaeda; and three, abide by the 
constitution of Afghanistan.''
    Success in Afghanistan will depend on the support of 
Afghanistan's neighbors, particularly Pakistan. Like 
Afghanistan's other neighbors, Pakistan has legitimate 
interests that should be understood and must be addressed.
    Pakistan also has responsibilities. Most importantly, it 
needs to take further steps to ensure that military and 
extremist groups cannot continue to find safe haven in 
Pakistani territory. Pakistan has powerful incentives to do so. 
In 2011 alone, some 2,000 attacks in Pakistan resulted in about 
2,400 deaths, mostly from improvised explosive devices.
    Mr. Chairman and Members of the committee, thank you for 
the opportunity to testify here today. We embarked on this 
fight a decade ago to ensure that the terrorist networks that 
struck in New York, in Washington, D.C., and in the skies over 
Pennsylvania would never again be able to use Afghanistan as 
their sanctuary.
    Thanks to the great courage and skill of the U.S. Armed 
Forces and civilian personnel, to our coalition partners and to 
our Afghan partners, our strategy is working. While success in 
warfare is never guaranteed, we are on a path to meet our 
objectives to deny safe haven to Al Qaeda and to deny the 
Taliban the ability to overthrow the Afghan government.
    I would like to conclude by thanking the committee for your 
continued support of our effort in Afghanistan and your strong 
support of the great men and women of the U.S. Armed Forces.
    Mr. Chairman, thank you, and I look forward to the 
committee's questions.
    [The prepared statement of Dr. Miller can be found in the 
Appendix on page 59.]
    The Chairman. Thank you, Dr. Miller.
    General Allen, welcome to your first hearing since you 
assumed this command. We are very appreciative of having you 
here today. The time is now yours.

  STATEMENT OF GEN JOHN ALLEN, USMC, COMMANDER, INTERNATIONAL 
             SECURITY ASSISTANCE FORCE--AFGHANISTAN

    General Allen. Thank you, Chairman. It is an honor to be 
with you here today.
    Chairman McKeon, Ranking Member Smith, distinguished 
Members of the committee, thank you for the opportunity to 
appear before you today to discuss our operations in 
Afghanistan.
    It is a pleasure to be here with my friend, Dr. Miller, the 
Acting Under Secretary of Defense for Policy. And Chairman, I 
ask that my verbal remarks be entered into the record.
    The Chairman. Without objection, so ordered.
    General Allen. Thank you, sir.
    Let me begin by expressing my gratitude to all of you on 
the committee for the support that you provide our men and 
women in uniform every day. That they are well equipped, well 
trained, and well led is a great testament to the efforts of 
this committee and to the great work of this Congress. And on 
behalf of those troops, and on behalf of their families, I want 
to thank you for that.
    In the past 8 months, I have walked the ground of 
Afghanistan with many of those troops. Along with my friend and 
partner, Ambassador Ryan Crocker, and my NATO compatriot, the 
senior civilian representative, Ambassador Sir Simon Gass, I 
have met with the leaders of most of the other 49 nations that 
serve alongside us in the International Security Assistance 
Force, ISAF.
    And all through this, I have been in close consultation 
with the Afghan civilian and military leadership, most of whom 
have experienced the years of Soviet occupation, the civil war, 
the darkness of the Taliban. In short, they have been enmeshed 
in their country's conflict for over three decades.
    And from all of this, I can tell you unequivocally three 
things. First, we remain on-track to ensure that Afghanistan 
will no longer be a safe haven for Al Qaeda and will no longer 
be terrorized by the Taliban.
    Second, as a coalition, the largest in recent history, we 
are well aware and well along on the progress to meet our 2010 
Lisbon commitments to transition security lead to the Afghan 
National Security Forces by December, 2014.
    And third, our troops know the difference that they are 
making every day. They know it and the enemy feels it every 
day.
    To be sure, the last couple months have been trying. In the 
wake of the revelations that American troops have mishandled 
religious texts to include the Koran, protests--some of them 
violent--occurred in several but only a few regions across 
Afghanistan. Thirty-two Afghans lost their lives in these 
riots, and even more were hurt.
    Just since the 1st of January the coalition has lost 60 
brave troops in action from 6 different nations; 13 of them 
were killed at the hands of what appear to have been Afghan 
security forces, some of whom were motivated, we believe, in 
part, by the mishandling of religious materials.
    And just as tragic, as Dr. Miller mentioned, we are 
investigating what appears to be the murder of 16 innocent 
Afghan civilians at the hand of a U.S. service member.
    Now, each of these events is heart-wrenching, and my 
thoughts and my prayers go out to all of those affected by this 
violence, coalition and Afghan alike. But I assure you the 
relationship between the coalition and our Afghan security 
forces remains strong.
    Just 2 weeks ago I was down in the Helmand province 
visiting with marines and with the local Afghan commanders. 
This was in the wake of the Koran burning incident when 
violence was at its peak. A young marine near Marjah said he 
and his unit were told about the demonstrations by their Afghan 
counterparts. The Afghan troops told them, ``Let us patrol 
outside the wire for a couple days. We have got this for you.''
    Understanding the gravity of the risk the Afghans had 
assumed for these marines, this particular marine continued, 
``Our Afghan brothers were trying to protect us.''
    This one statement, spoken by a young marine, conveys the 
power of this brotherhood-in-arms that has been forged in 
battle now over the years. It speaks to the trust that we have 
built with the Afghans and to the shock-absorbency of this 
relationship.
    And yet we know there is much hard and deadly work that 
remains to be done. But the progress is real, and, importantly, 
that progress is sustainable.
    We have severely degraded the insurgency. As one Afghan 
commander told me in the south, in the latter part of 2011, 
``This time around the Afghan Taliban were the away team.''
    On top of that success, as a result of our recent winter 
operations, we have seriously degraded the Taliban's ability to 
mount a major spring offensive of their own. This spring they 
will come back to find many of their caches empty, their former 
strongholds untenable, and a good many of their foot soldiers 
absent or unwilling to join the fight.
    Indeed, in Kandahar back in December, 50 former Talibs 
decided to reintegrate on short notice back into the Afghan 
society. And when we asked them why they laid down their arms 
they complained of the unrelenting pressure that they feel.
    They said they found themselves up against capable Afghan 
forces in greater numbers, with greater frequency. And while 
they were willing to fight foreigners, they were unwilling to 
fight their Afghan brothers, especially Afghans who fought back 
with courage and with skill because of the training that we had 
provided them.
    And the training we provide them is critical to our 
mission. Throughout history, insurgencies have seldom been 
defeated by foreign forces. Indeed, they have been ultimately 
beaten by indigenous forces.
    In the long run our goals can only be achieved and then 
secured by Afghan forces. Transition, then, is the linchpin of 
our strategy, not merely the way out.
    And during the past 12 months, Afghan security forces have 
expanded from 276,000 to 330,000. And they will reach their 
full strength ahead of schedule, the deadline having been 1 
October.
    The expansion and the professionalization of the Afghan 
security forces allows us to recover the remaining 23,000 U.S. 
surge forces this fall, enables us to continue to pressure the 
Taliban to reconcile, and makes possible security transition to 
the Afghans in accordance with our Lisbon commitments and on 
time.
    Security conditions remain good in areas that have 
transitioned thus far, from Kabul in the east to Herat in the 
west, from Mazar-e-Sharif in the north to Lashkar Gah in the 
south. And later this year Afghan security forces are expected 
to assume security lead for as much as two-thirds, or possibly 
more, of the Afghan population.
    And as the potential unifying influence in Afghanistan, the 
Afghan forces are better than we thought they were, and they 
are better than they thought they were when tried in combat.
    So as we move them to the fore, they are gaining more and 
more confidence and they are gaining more and more capability. 
In the past 5 months, 89 percent of the total conventional 
operations were partnered with both coalition and Afghan 
forces, and 42 percent were Afghan-led.
    Over the next 2 years coalition forces will remain combat 
ready, but increasingly focused on security force assistance 
missions as we continue to move the Afghans into the lead.
    In this process, Afghan leadership is simply key. And I can 
tell you that the Afghans want to lead and they want the 
responsibility that comes with it.
    In fact, for the very first time, our joint coalition-
Afghan operational campaign plan for January 2012 through July 
2013 was conceived, developed and planned with Afghans in the 
lead. They are truly emerging as the real defeat mechanism of 
this insurgency and increasingly as an emblem of national 
unity. And this is essential for the long-term security of 
Afghanistan.
    But none of us harbor illusions. We know that we face long-
term challenges as well. We know that Al Qaeda and other 
extremist networks, the very same networks that kill Afghan and 
coalition troops every day, still operate with impunity across 
the border in Pakistan.
    We know that the Taliban remain a resilient and determined 
enemy and that many of them will try to regain their lost 
ground this spring through assassination, intimidation, high-
profile attacks, and the emplacement of IEDs [Improvised 
Explosive Devices].
    We know that Iran continues to support the insurgency and 
fuels often the flame of violence.
    We know that corruption still robs Afghan citizens of their 
faith in their government and that poor governance itself often 
advances insurgent messages.
    This campaign has been long. It has been difficult. And it 
has been costly. There have been setbacks, to be sure, and we 
are experiencing them now. And there will be setbacks ahead.
    I wish I could tell you that this war was simple and that 
progress could easily be measured, but that is not the way of 
counterinsurgencies. They are fraught with both successes and 
setbacks which can exist in the same space and in the same 
time, but each must be seen in the larger context of the 
overall campaign.
    And I believe the campaign is on track. We are making a 
difference. I know this and our troops know this.
    And I would like to take just another moment of your time 
today, Mr. Chairman, to end where I began this morning, with 
our troops and the thousands of American and coalition partner 
troops that are bearing the weight of this conflict and those 
that will never return to their families.
    Know this--that they are central to my every decision and 
my every word to this committee. And one of them, a young 
marine who was laid to rest Tuesday in Arlington Cemetery, was 
a hero. He knew what he stood for and he knew his mission. And 
he knew the risks. He knew he might have to give his life for 
this cause for which we fight.
    So Sergeant William Stacey prepared a letter for his family 
to be read in the event of his death. And in it he said, 
``There will be a child who will live because men left the 
security they enjoyed in their home country to come to his, and 
this child will learn in new schools that have been built. And 
he will walk his streets not worried about whether or not some 
leader's henchmen will come and kidnap him. And he will grow 
into a fine man who will pursue every opportunity his heart 
could desire. And he will have the gift of freedom, which I 
have enjoyed so long. If my life buys the safety of a child who 
will one day change the world, then I know that it was all 
worth it.''
    Mr. Chairman, I can only add that I am confident that 
Americans are safer today because of the service of members 
like William Stacey. And I am confident that we will prevail in 
this endeavor.
    Thank you again for this opportunity today, for the 
extraordinary support that you and this committee provide every 
day to our magnificent young men and women in uniform I am so 
privileged and honored to lead.
    Thank you, Chairman.
    Thank you, Ranking Member Smith.
    [The prepared statement of General Allen can be found in 
the Appendix on page 67.]
    The Chairman. Thank you very much, General.
    General, we hear conflicting accounts in the press about 
both our goals in Afghanistan and the means to achieve those 
goals. I am hoping that you can clarify the current thinking 
and what you are being told.
    First, can you tell the American people what our mission in 
Afghanistan is, and are we succeeding?
    General Allen. Chairman, our mission is to keep the Taliban 
from overthrowing the Government of Afghanistan and to provide 
the capacity for the Afghan National Security Forces to provide 
the security to that government over the long term. But it is 
also to deny Al Qaeda safe havens in Afghanistan.
    The Chairman. Thank you. I have a series of questions here 
to further clarify what you just told us. Following the 
security gains made in the south by the surge forces last year, 
does your campaign plan still call for coalition operations to 
shift focus to Regional Command East?
    General Allen. Chairman, at this particular juncture, we 
intend to consolidate our hold on the population centers in the 
south. Ensuring that we have, it is my intention to examine the 
shift of the main effort to the east at this point. I have not 
made a final decision in that regard.
    We anticipate shifting resources to the east in any case, 
because it remains there that the principal counterinsurgency 
fight will ultimately be shaped in 2012.
    The Chairman. Does your plan call for a continued 
counterinsurgency mission?
    General Allen. Yes, it does, sir.
    The Chairman. To your knowledge, is the Administration 
committed to this plan, and sustaining a counterinsurgency 
mission?
    General Allen. Yes, it does, sir.
    The Chairman. In your best professional military judgment, 
what level of forces do you require through the end of the 2013 
fighting season? And what are the associated objectives you 
would want to achieve with those forces?
    General Allen. Chairman, the answer to that question is a 
bit more complicated. We are in the process now. I am in the 
process of making decisions with respect to the recovery of the 
second phase of the surge forces.
    I anticipate that those decisions to have been made and for 
my submission of that recommendation sometime in early April. 
If we are going to spend the preponderance of the high OPTEMPO 
[Operational Tempo] period of the summer of 2012 both 
continuing to fight the counterinsurgency, as I said, to 
consolidate our gains in south, to expand the security zone 
around Kabul, at the same time, we will be recovering the 
second phase of the surge forces, the 23,000.
    On 1 October, we will have approximately 68,000 U.S. forces 
remaining, somewhere around 40,000 ISAF forces, and probably by 
then 352,000 ANSF.
    Because of the nature of the recovery of the force, because 
of the progress of the campaign that I anticipate in 2012, it 
is my intention to take the time following the recovery of the 
surge forces to examine the insurgency, to examine the progress 
that we have made in the development of the ANSF, to see the 
posture of the battle space, as it has developed throughout the 
fighting season of 2012.
    And then before the end of 2012, I intend to provide 
through my chain of command, to the President, a series of 
recommendations on the kind of combat power that I will need 
for 2013 and 2014. I don't have a decision at this point, 
Chairman. And it is not my intention to be able to make that 
decision today. It is going to require some analysis after the 
conclusion of the fighting season and the recovery of the 
23,000 troops in phase two of the surge drawdown.
    The Chairman. Thank you.
    Have you been given assurances by the White House that you 
can have the forces that you believe you need through the end 
of the 2013 fighting season?
    General Allen. I have been given assurances by the White 
House that we are in a strategic conversation, Chairman. There 
has been no number mentioned. There has been no number that has 
been specifically implied.
    There is an excellent, I believe, strategic conversation 
that is going on, that will account for my recommendation, the 
recommendation of the theater commander, and the joint staff in 
this process.
    And I am very pleased, frankly, with where we are in that 
conversation now, sir.
    The Chairman. Thank you.
    Has the White House always followed your best military 
judgment?
    General Allen. As the commander in Afghanistan, it has, 
sir.
    The Chairman. The New York Times reported last week that 
there is a growing belief within the White House that the 
mission in Afghanistan has now reached the point of diminishing 
returns.
    Do you agree that the mission has reached a point of 
diminishing returns? If not, why? And is the progress you are 
make sustainable?
    General Allen. I don't agree with the article. I read the 
article. In fact, I know that the article was disavowed by 
people who were quoted in the article.
    We are making progress, Chairman. We have made progress, as 
Dr. Miller had indicated. For example, just in the last 12 
weeks, the enemy-initiated violence across the country is 25 
percent less than it was during the same period of time last 
year.
    In the same period of 12 weeks, the civilian casualties, 
for example, is 74 percent less than it was during the same 
period of last year. The growth of the ANSF has been dramatic. 
The growth of the ANSF special operators has been dramatic.
    And as the ANSF continues to move to the fore, in full 
partnership with us within this comprehensive counterinsurgency 
campaign, I believe that there is great potential for us to 
accomplish all of these objectives.
    And I remain committed to the campaign. And I remain 
optimistic that with the right kinds of resourcing and the 
comprehensive counterinsurgency campaign continuing as we 
currently envision it, that we will be successful.
    The Chairman. Thank you very much.
    Ranking Member Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    I actually want to follow up on that piece there. I think 
it is just a misunderstanding about the mission and where it is 
going. We are transitioning. That is the whole point; to bring 
in other forces.
    It is not a matter that the mission is reaching a point of 
diminishing returns. It is a matter that the mission is 
reaching a point of reasonable success. And for it to continue 
to succeed, we need to make that transition.
    I mean, it seems like there is always an argument for more 
troops on our side. If things are going well, that is evidence 
that we can't leave, because, ``Look, it is working; we have to 
stay there.'' If anything goes wrong, that is evidence that we 
have to stay longer and in greater numbers, because, ``Look, it 
is not going well.''
    That is not the point of our mission. As I said in the 
outset, nobody on this committee, nobody in this country wants 
a permanent presence in Afghanistan.
    So you have got to take a step back and say, ``Okay. If we 
don't want that and we want to succeed in the mission that you, 
General Allen, very clearly described, to make sure that the 
Taliban do not return to power, that Al Qaeda does not find 
safe haven, well, then how do we do that?''
    Logically, we build up a force of Afghans who can make sure 
that that does not happen. But that is literally the only 
option. It is not an option for us to stay there forever in 
order to make sure that the Taliban and Al Qaeda don't come 
back. Therefore, we need to build up a local partner that can 
do that.
    And what we have described this morning--even some of the 
comments from the chairman show that we are making enormous 
progress on that. But we don't succeed until we make that 
transition.
    General, you have mentioned some of the numbers a couple of 
times. But if you could lay out for us the progress that has 
been made in terms of the ANSF, you know, all security forces, 
both in terms of the national military, local police, I think 
that will give us some idea.
    As we have drawn down, you know, from a relative numbers--I 
don't know exactly what the numbers are. There are 100,000 U.S. 
troops; we are coming down to mid-60,000s, I think, by October. 
NATO has drawn down a little bit.
    Give us an idea of how that compares with how the ANSF and 
domestic security forces have grown, if you could give us those 
numbers. That is a key part of the transition.
    General Allen. Thank you for your comments, because I 
absolutely agree with you that transition to the ANSF is the 
key to the success of this mission over the long term.
    In January 2011, there were 155 battalion-sized formations 
in the ANSF. And 101 of those were ranked in the top three of 
the categories of measure for capability--independent with 
advisers, effective with advisers, effective with partnership.
    In the year since then, that number has grown to 138 
battalions that have grown independent with advisers----
    Mr. Smith. Just so we are tracking, you went from 101 to 
138 in a year?
    General Allen. That is correct.
    Mr. Smith. Great.
    General Allen. And it went from 155 battalion-sized 
formations to 168 battalion-sized formations. So the Force has 
grown significantly in just a year. But it has also grown in 
its capabilities in just a year. And we have seen that not just 
in the army but also in the Afghan National Police as well.
    We have seen the emergence of the Afghan special operations 
capabilities also dramatically enhanced over the period of the 
last 2 years, but in the period of last year as well; the 9 
Commando Kandaks [battalions], the 72 Special Forces 
Operational Detachment Alphas, the A-Teams, if you will, the 
emergence of the special police units within the General 
Directorate of Special Police Units, within the Ministry of 
Interior.
    This has been dramatic progress. And those units, at 
varying levels of capabilities, either with advisers or with 
partners, continue to make progress. And as I said earlier, 89 
percent of our operations are partnered operations today.
    There are operations on the ground, as we speak, right now, 
in Afghanistan where Afghan units are in the lead with 
partnered operations with ISAF forces.
    And so we have seen that progress. We intend to continue to 
pursue that progress. Among the four priorities that I gave to 
my commanders the day I took command--and those priorities I 
believe are still operative--while we will continue with my 
first priority, which is pressure the insurgency in a 
comprehensive counterinsurgency campaign--the second priority, 
which is only slightly behind it, is to do all we can do 
accelerate the movement of the ANSF into the fore.
    And we are going to continue to pursue that very 
aggressively, Mr. Smith.
    Mr. Smith. One more question. President Karzai has, you 
know, made a number of comments, you know, being concerned 
about the U.S. troops, talking about returning us to our bases, 
ending night raids. I mean, by and large, it seems to me those 
comments reflect domestic pressure.
    I mean, they reflect the Afghan constituents that President 
Karzai is responsible to being concerned about the foreign 
military presence. And while President Karzai is aware of the 
importance of us being there, he is also aware that most of the 
people in Afghanistan look forward to the day when we are not.
    So, number one, is that an accurate reflection, in your 
view, of what President Karzai and some other domestic 
politicians in Afghanistan are reflecting? And number two--this 
is for both Dr. Miller and General Allen--how do you work that 
relationship?
    How do you make sure that the transition continues to 
happen in a responsible way, and not in a rushed way, given 
some of that domestic political pressure? But again, I will 
point out that domestic political pressure that President 
Karzai and others in the Afghan government are feeling reflects 
the flaw in the strategy that says, ``If things aren't going 
well, let us just stay there forever.''
    There is the reality of dealing with the Afghan population. 
But how are you managing that relationship, to get to a 
responsible transition, given those pressures?
    General Allen. Well, I think, if I may, there is no part of 
our strategy which intends to stay in Afghanistan forever.
    In fact, our strategy, which is a part of the larger ISAF 
strategy, which was agreed to, ultimately, with NATO, ISAF, and 
Afghanistan in the Lisbon Conference in November of 2010, 
called for us to work through the business of transition, 
moving the ANSF gradually into the lead for security across the 
country, in a process that will be completed by the end of 
2014.
    The campaign accounts for that. And the campaign accounts 
ultimately for the drawdown of U.S. and ISAF forces, as the 
ANSF moves to the fore, gains its full capability, is fully 
fielded in the battlefield. And that process is on track and, 
in fact, envisages the reduction of U.S. numbers and the 
reduction of ISAF forces in direct support of our ISAF and 
Lisbon transition goals of 31 December, 2014.
    With regard to the voices that we hear in the Afghan 
government, the Afghan government is on a path towards 
sovereignty. This is the whole process that we are talking 
about with respect to the Lisbon Convention, anticipating 
security lead by 2014.
    And we should encourage the voices of sovereignty. We 
should encourage actions within the Afghan government that seek 
sovereignty. The MOU that I recently signed with Minister 
Wardak was one of the greatest acknowledgements of Afghan 
sovereignty, where as they partner increasingly with us in a 
comprehensive counterinsurgency, they will take responsibility 
ultimately for the administrative detention of insurgents in 
the battle spacing.
    And American forces will cease detaining Afghans for long 
periods of time. And the Afghans will pick up that 
responsibility. That is appropriate. It is a great indicator of 
sovereignty, for example.
    With respect to night operations, we have been in a long-
term conversation with the Afghan government in that regard. I 
believe that, just in the last 3 months, we have come a very 
long way in creating greater capacity amongst the Afghans to 
conduct night operations in a very credible way.
    Now we are still heavily partnered with them, and we will 
be for some period of time. But not only do our operations 
now--all of our night operations are partnered with Afghan 
partner unit forces, their own commandos, which are very good 
commandos.
    But we are in the process now of building 12 Afghan Strike 
Forces of their own. As you know, sir, I have a number of 
strike forces that are detailed to me that operate under the 
control ultimately of JSOC [Joint Special Operations Command]. 
And those are the strike forces that are so famous for the 
success of the night operations, which have been enormously 
successful in shredding the enemy's network of command and 
control.
    We are building that capability with the Afghans. That is 
another step towards sovereignty. And these are all steps 
towards a strategic partnership with Afghanistan, which we hope 
ultimately to have completed before very shortly the heads of 
state of the 50 ISAF nations meet in Chicago, hosted by the 
President of the United States.
    So I think we are on track, sir. And I think even though 
that there has been some domestic rhetoric from the President 
on departing the villages early, et cetera, I will say that 
both our President and President Karzai had an extended 
conversation the other day--in fact, they have spoken three 
times just recently--where both of them were in full agreement 
that the Lisbon-based process and formulation of transition is 
on track. And they both support it, which calls for the 
complete ANSF lead by the close of business on the 31st of 
December, 2014, sir.
    Mr. Smith. Thank you.
    Thank you very much.
    I am sorry, Dr. Miller. Do you have something quickly? I am 
sorry, got a little bit over time. But go ahead.
    Dr. Miller. Mr. Smith, let me just say that obviously 
General Allen said it all. I just want to reiterate three 
points.
    The first is a commitment to continue the transition 
process across all the elements that the general talked about.
    The second is the relationships. And we have one of our 
finest commanders and one of our finest diplomats in country 
with General Allen and with Ambassador Crocker. And in addition 
to that, the Secretary of Defense and the President have been 
in contact with President Karzai multiple times, even in the 
last couple of weeks.
    I want to emphasize also that the contacts at the next 
level down, if you will, with Minister Wardak, the Defense 
Minister, with Mohammadi for Interior, with the National 
Security Advisor Spanta--getting the depth to those contacts is 
also important to improve our mutual understanding and the 
resilience of the relationship.
    And third and finally, let me say that the long-term 
strategic partnership is going to be vital; not just 2015 
forward, but an understanding of us having that commitment is 
important to sustaining this relationship in the meantime.
    Mr. Smith. Thank you. I appreciate that. I know neither of 
you gentlemen have an easy job. I think you are doing it well.
    And there are no guarantees. But we have to transition to 
Afghan sovereignty as quickly as we responsibly can. Thank you.
    The Chairman. Thank you.
    Mr. Bartlett.
    Mr. Bartlett. Thank you both very much for your service to 
our country. I know that everything we read and hear is not 
necessarily true, and stories get warped. But there are a 
series of events that give me some pause if they are true.
    I would like, for the moment, for you to imagine that you 
are a Taliban fighter and this is what you have heard. A number 
of months ago, the President of the United States says that we 
are pulling out of Afghanistan in 2014. We are gone.
    Several months ago, the Secretary of Defense says that in 
2013, we are going to stop combat operations and just continue 
with security and training of the Afghan forces. And that 
position is corroborated by the White House.
    And then just a few weeks ago, I hear of a program that 
will give me $125 to $150 a week if I stop fighting, and I can 
still keep my gun. Now I am a rational Taliban fighter, what do 
you think might be a rational position that I would take with 
those facts in mind?
    Dr. Miller. Mr. Bartlett, let me answer in two parts.
    First, I want to be absolutely clear that the Lisbon 
transition strategy is still this Administration's policy and 
is still the direction in which we are headed. And that 
includes a transition to Afghan leadership throughout 
Afghanistan by the end of 2014 and Afghan responsibility for 
security throughout the country by the end of 2014.
    The U.S. and coalition at that time, we would expect, would 
still provide some support, including train, advise, and 
assist, and including the capacity for counterterrorism 
operations, at that point in time.
    When the Secretary of Defense and others have talked about 
the 2013 timeframe, it is a milestone on the path. And in 2013 
we expect that each of the tranches of transition that are to 
Afghan lead that were announced at Lisbon will have begun. So 
the final tranche will have begun in have begun sometime in 
2013.
    At that time, there will be Afghans in the lead for 
security throughout the country. But they will not have full 
responsibility throughout the country, as they will in 2014.
    In 2013, it will be very, very much of a mixed model. In 
some cases, it will be partnered units, as is occurring very 
much today. In some cases, it will train, advise, and assist. 
In some cases we may have moved our forces and coalition forces 
may have moved to strategic overwatch, but in other cases there 
will be a much more significant role for U.S. and coalition 
forces in that intervening period.
    So, sir, this is part of that transition process. And 
sometime in 2013 we will see that milestone with the start of 
that final tranche, but that begins just an additional round of 
transition. We expect the conclusion of that to occur by the 
end of 2014.
    Mr. Bartlett. If in the meantime we are offering the 
Taliban fighter $125 to $150 a month if he will just stop 
fighting, and he can keep his gun, do you think he might just 
stop fighting and keep his gun, knowing that we are leaving in 
2014 and that then he can pick up the fight and we won't even 
be there?
    Dr. Miller. Mr. Bartlett, I don't reject that possibility, 
but I want to offer two contrary points, if you will.
    The first is that if a fighter wants to pick up his gun at 
any point in time in Afghanistan; that is likely to be a 
possibility. And if you look at the availability of AK-47s 
[assault rifles], this is a country that has had a significant 
number of weapons for a long period of time.
    Second, and critically importantly, what Secretary Clinton 
stipulated for fighters that come off of Taliban, come off of 
the field as an outcome, they need to sever ties with Al Qaeda. 
They need to renounce violence, and they need to agree to the 
Afghan constitution.
    If they do those things, then the gun will be silent. And 
in many cases, it may actually come to fight on the other side 
and become part of the Afghan National Security Forces over 
time.
    So, sir, I would hope that and expect that what a Taliban 
fighter today would see is a commitment, not just between now 
and 2013 or now and 2014, but an enduring commitment; see an 
increasingly capable ANSF that General Allen has talked in 
detail about.
    And what they are seeing is that they are going to lose, 
and if they want to come across in reconciliation to have an 
opportunity to be a part of the solution and not a part of the 
problem, that the ANSF, with coalition and U.S. support, will 
solve.
    The Chairman. The gentleman's time has expired.
    Mrs. Davis.
    Mrs. Davis. Thank you very much.
    And Dr. Miller and General Allen, thank you for your 
dedicated service.
    I wanted to just follow up on those numbers for a minute--
and sustaining the effort on the part of the Afghan army.
    It is my understanding that, as you are speaking about the 
size of the battalions, that we are looking at a force of about 
352,000 existing up until about 2014. But after that, due to 
budgetary reasons and certainly our own investment in that, we 
are looking at about 230,000.
    Is that a correct number--that we are downsizing to that 
level--you are anticipating that we will be, you know, going to 
that level?
    Dr. Miller. Mrs. Davis, at this time the only figure that 
is taken as given is the 352,000 as the target for the combined 
size of the Afghan National Army and the Afghan National Police 
for the ANSF overall.
    We expect that at some point in time, and that time has not 
been determined--it has been a topic of conversation both in 
the United States and with the coalition, with the Afghans--at 
some point in time, it will make sense to reduce that level to 
a long-term sustainable level. But the point of time that makes 
sense will depend fundamentally on conditions on the ground.
    And some of the calculations that you have heard, and some 
of which have been in the press, frankly--some accurately and 
some not so accurately--are looking at a point in time at which 
the Taliban is significantly reduced and when the scale of the 
Afghan National Security Force is required to cope with that, 
would therefore also be lower.
    Mrs. Davis. Right. Okay.
    Dr. Miller. Neither the end number or any point in time is 
determined at this time. So people have talked about numbers. 
People have talked about timelines. None of that is decided 
and, indeed, we have not yet heard recommendations from----
    Mrs. Davis. Thank you. Thank you, Dr. Miller.
    I certainly wanted to clarify that because I think there is 
a concern that if it is downsized to that level, obviously the 
budget plays a role, but we would also have a lot of former 
Afghan soldiers in the country, perhaps without a job.
    Is that something that we are also looking at; that 
transition? And what happens after that?
    Dr. Miller. General Allen may wish to add to this as well, 
but a sign of success down the road--and it is not immediate, 
but down the road--would be that the Taliban was significantly 
smaller; that the Afghan National Security Forces therefore 
could be smaller; and then the challenge associated with that 
would be reintroducing those forces back into the economy.
    And the good news is that because of what they would have 
gone through to become part of the ANSF, they would be trained 
with respect to literacy. They would be more capable of 
contributing to that economy. But that demobilization process 
is something that would need to unfold over time and for which 
we will need to have an explicit plan.
    Mrs. Davis. Yes, thank you. And certainly, literacy is a 
big concern here. I mean, we are talking about first-grade 
level for many, many of the troops, and whether or not that is 
sustainable to have them continue to be able to develop that 
economy.
    General Allen.
    General Allen. And we have continued to emphasize literacy. 
And the soldiers that go through--the police that go through--
their basic training, that attain a first-grade level, will be 
given the opportunity to continue that literacy training. We 
require that certain leaders have a minimum standard of 
literacy.
    And so as you correctly point out, should there be--and 
there will be a drawdown at some point of the ANSF from 350,000 
to some number in the post-2014 period--there are options now 
for those soldiers that there wouldn't have been before.
    And so I would imagine in a managed force reduction, the 
plan remains to be developed, but pretty soon we are going to 
have to start to think about it. There will be such aspects of 
that plan such as vocational training.
    Mrs. Davis. All important, I agree, General.
    Could I just very quickly in the remaining time, General, 
just ask about morale. You conveyed I think quite eloquently 
the feelings of troops, I think, and, you know, how they see 
their mission. But clearly, these kinds of setbacks can be 
devastating.
    I wondered if you could speak more to that, and also 
whether or not we are doing anything differently as we redeploy 
troops in looking at records and number of deployments. This 
obviously is something that bears on everybody's 
responsibility.
    The Chairman. The gentlelady's time has expired.
    Can you please answer that question for the record?
    [The information referred to can be found in the Appendix 
on page 85.]
    General Allen. I will, sir. Thank you.
    The Chairman. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    General, my understanding from people who should know--and 
it has been written about in the press--was the original surge 
in original surge--the military commanders asked for a floor of 
40,000 troops for the original surge in Afghanistan.
    They said the best if we could get 80,000. What they 
actually got approved was 30,000, which was a 25 percent cut 
from what they said the floor should be. And there are some 
people who believe that it has cost us added lives and time 
because that request was not agreed to.
    Now, all that was before your time, but I notice in 
yesterday's Wall Street Journal, it says that the plans and the 
result of that 25 percent cut was that the campaigns had to be 
done sequentially. You couldn't do both the east and the south 
at the time. You had to do the south first and then the plan 
was to move to the east.
    Yesterday, the Wall Street Journal said that it is delayed 
to make that transition from the south to the east because 
things are not wrapping up in the south as was planned. And I 
take it from your answer to the chairman's question that that 
is true; that we are going to have to stay in the south longer 
than anticipated before we move the troops to the east to deal 
with that region. Is that right?
    General Allen. We have to consolidate the hold on the 
population centers in the south. It is the spiritual heartland 
of the Taliban.
    Mr. Thornberry. Yes.
    General Allen. And that surge, those forces that we had, in 
conjunction with the ANSF and the development of the Afghan 
Local Police, et cetera, has in many respects permitted us to 
be successful in ejecting the Taliban from the key terrain down 
there, which is the human terrain.
    So we are going to need to ensure that as we develop the 
ANSF, that those forces are able to consolidate the hold on the 
population to prevent the reentry by the Taliban into those 
forces and into those areas. That is essential.
    We do intend to conduct comprehensive counterinsurgency 
operations in the east. And the east will be very well 
resourced. And we are going to do both of them simultaneously.
    So any suggestion that we are going to hold in the east 
while we conduct operations in the south is not, in fact, 
correct. The potential difference is whether I ultimately 
declare that the east will be the main effort, which permits me 
to shift other resources, like ISR and potentially some rotary 
wing assets to the east.
    But I will tell you that the RC [Regional Command]-East 
commander is fully capable of conducting aggressive operations 
against the insurgency and is well resourced to do so. But my 
number one goal will be to continue to deny the enemy access 
back into the key terrain of this insurgency, which is the 
Pashtun population in the south, sir.
    Mr. Thornberry. Let me just real briefly--success in the 
east is going to be essential for the overall success in the 
mission ultimately, isn't it, because of the proximity with 
Pakistan?
    General Allen. Success in the south is crucial----
    Mr. Thornberry. I agree with you on the south. I am asking 
about the east.
    General Allen. And in the east we will have to conduct 
comprehensive operations for some period of time there, just by 
virtue of the proximity of the Pakistani border.
    Mr. Thornberry. Yes. That is----
    General Allen. The lines of movement are much closer to 
Kabul.
    Mr. Thornberry. Exactly.
    General Allen. So we will anticipate continued operations 
there for some time.
    Mr. Thornberry. Yes. You have talked a lot about the growth 
in the Afghan security forces. And I, among others, have been 
incredibly impressed by village stability operations and Afghan 
Local Police.
    But it is also my understanding that that takes time, that 
there is a clear timeline, say 18 months to 2 years, during 
which this special operations team, maybe augmented by 
conventional forces, has to live in that village in order to 
conduct the training and get those Afghan Local Police off on 
the right path, to stabilize the area, as you have just been 
describing.
    I am a little concerned that we are too focused on numbers 
here, particularly tremendous growth, that that will make it 
hard to stick. How are you ensuring that the quality stays 
there as we have had these tremendous increases in numbers?
    General Allen. May I get a clarification--quality of the 
ALP [Afghan Local Police]?
    Mr. Thornberry. Yes, quality of the troops and the ability 
for them to stabilize, as you were just describing, in the 
south, how they have got to hold their own, prevent the Taliban 
from coming back--so that it is more than just a numbers game.
    General Allen. Well, it will be important that we continue 
the--as you have correctly pointed out--the deliberate process 
of creating the village stability platform, which ultimately 
creates a community mobilization for the development of the 
Afghan Local Police.
    We have 99 sites that have been approved ultimately for the 
location of the Afghan Local Police, and we are well on the 
way--we are over 50 percent of that in terms of the creation of 
those Afghan Local Police garrisons; and most of those--a vast 
majority of those--actually support the campaign. And many of 
those village stability locations we began operations in them 
months ago.
    And so that progress is continuing. We are using our 
special operators now to be the core element for the creation 
of the village stability platform, to create the community 
mobilization, to ultimately embrace their own security, to be 
the trainers and ultimately the mentors for the Afghan Local 
Police.
    And as time goes on, sir, it is our intention to use Afghan 
special operators ultimately to--just as we are in other 
areas--to transition our special operators out of those 
garrisons and move them on to other areas where they will 
continue the mission.
    The Chairman. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Dr. Miller--probably could have been in that chair, in that 
position. I was sitting down here at the time, 2002 and 2003, 
and the military at the time was telling us in Afghanistan we 
needed to train 70,000 folks in Afghanistan. And we were going 
to do 10,000 a year for 7 years or 7,000 a year for 10 years, 
or something along those lines.
    That number has clearly increased over time. It is now up 
to 352,000.
    What can you tell me that is going to assure me that in 
July you aren't going to come back--or even, say, after May, in 
Chicago--you aren't going to come back and say, ``Well, what we 
meant 400,000. What we meant was 450,000 security forces we 
needed to train''?
    Dr. Miller. Mr. Larsen, there is some pretty in-depth 
analysis behind the number 352,000.
    I can't tell you that it shouldn't be 351,000 or 353,000; 
but a very good analysis in terms of the requirements for the 
Afghan National Army and the Afghan National Police, and 
corresponding assumptions also about the Afghan Local Police 
and other elements that could provide security.
    Sir, I guess I would turn it around and say that if we had 
a recommendation from General Allen--if we had analysis showing 
that the number should be different--I would want to hear that 
from General Allen and I would want to bring that forward to 
the Secretary of Defense and then forward to the White House.
    We have a lot of analysis behind the current assessment. It 
is based on not just an assessment of what the situation is in 
Afghanistan and where it may go, but on a pretty good, in-depth 
analysis of past counterinsurgency efforts.
    So I don't expect that there is going to be a large delta. 
But, sir, I would say, if there were, I would feel obligated to 
ask General Allen for his assessment and I would feel obligated 
to take that assessment forward.
    Mr. Larsen. I would hope you would feel obligated to come 
to us as well?
    General Allen, do you have a comment on that?
    General Allen. I am satisfied with the 352,000 number. As 
we have seen this year's campaign unfold, we believe that the 
partnership relationship that we have now with ISAF and the 
emerging ANSF--ultimately our drawdown as they continue to grow 
to their full surge strength of 352,000--I think that is an 
adequate number.
    The issue really isn't the number. I think over the long 
term the issue will be the disposition of the force on the 
ground. And it goes back to Mr. Thornberry's comments about 
operations in the south versus operations in the east; that we 
may well see that we will have to thicken the defenses in the 
east over the long term if the safe-haven situation doesn't 
change.
    So it is less about the number than it is probably about 
the longer-term disposition of those forces on the ground to 
defend key population centers.
    Mr. Larsen. General Allen, I am not asking this next 
question to get too much into the weeds on the Sergeant Bales 
incident, because that is going to adjudicated elsewhere. But 
with regards to the investigation related to command in 
Afghanistan, the situation on the ground that he was operating 
in, not the situation, but the command structure in 
Afghanistan, are there separate investigations going on, 
separate from the criminal case in Afghanistan?
    General Allen. Yes. We will conduct an administrative 
investigation as well as a criminal investigation.
    Mr. Larsen. Could you explain what an administrative 
investigation is?
    General Allen. It will look at the entire command-and-
control process; how he was assigned, why he was assigned. It 
will look at the command relationships associated with his 
involvement in that combat outpost.
    Mr. Larsen. Has that been assigned then, is someone 
assigned to do that?
    General Allen. It is being assigned through U.S. Forces 
Afghanistan.
    Mr. Larsen. Thank you.
    And then, finally, General Allen, can you discuss the 
attrition rate for the Afghan National Army? It is noted that 
the goal is 1.4 [percent]. The current is 2 percent attrition 
rate. That doesn't sound like a lot, but when you are talking 
352,000 people, 2 percent starts to get to be a lot.
    General Allen. It is improving. The latest number we have, 
you said 2.0, it is 1.9. That is only a tenth, but it is over a 
year. That is not an insignificant number of troops.
    Mr. Larsen. That is right.
    General Allen. We are working very hard within the ANSF to 
ferret out the reasons for attrition. And a variety of those 
reasons are the issues of pay, quality of life, leadership, the 
missions in which those forces have been involved.
    And to their credit, the ANSF have embraced many of these 
issues, and in fact are studying them with great detail. They 
are removing incompetent or corrupt commanders. They are 
seeking to improve the quality of life for their troops. They 
are ensuring that they get out on leave, which is an important 
dimension of the morale.
    All those things, I think, have pushed down, in fact, 
attrition, and very shortly, with the expiration of a 
presidential decree, those individuals that go in an 
unauthorized absence or an AWOL status are going to start being 
held accountable for that as opposed to being able to just come 
and go as they had previously done.
    That is all part of a disciplined force. It is all part of 
a professional force. And we are seeing all of that improve on 
a regular basis, sir. Thank you for that question.
    Mr. Larsen. Thank you.
    The Chairman. Thank you.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much.
    General Allen, for the last 3 years, a former boss of yours 
has been advising me on Afghanistan. I cannot say his name, but 
I will say that he has great respect for you.
    I would like to use a couple of the words he has used 
recently in an e-mail--``A brilliant soldier statesman,''--
talking about you, General Allen--and that you are ``as honest 
as the day is long.''
    And I think those qualities, no matter who you are, uniform 
or out of uniform--you can't say anything nicer about an 
individual than that.
    Over the past 10 years, I have been hearing from the 
administration and those who were in your position prior to you 
being in here today. And Dr. Miller, your comments and General 
Allen's is what I have been hearing for 10 years.
    I mean, everything is--our gains are sustainable, but there 
will be setbacks; we are making progress, but it is fragile and 
reversible. Well, you know, going to Walter Reed in Bethesda 
recently, I had a young marine lance corporal who lost one leg. 
And he said to me with his mother sitting in the room, 
``Congressman, may I ask you a question?''
    ``Certainly you may, sir.''
    ``My question is, why are we still there?''
    And I look at this e-mail from your former boss, and I 
would like to read just a portion of it.
    ``Attempting to find a true military and political answer 
to the problems in Afghanistan would take decades''--decades, 
not years--``would drain our Nation of precious resources, with 
the most precious being our sons and daughters.
    ``Simply put, the United States cannot solve the Afghan 
problem, no matter how brave and determined our troops are.''
    That gets me to the point that at--what is the metric? What 
is the event that the Administration and General Allen, you, 
sir, are going to be candid with the United States Congress--
and more important than Congress, the American people--as we 
are spending $10 billion a month that we can't even pay for. 
The Chinese--Uncle Chang--is lending us the money to pay that 
we are spending in Afghanistan.
    When does Congress have the testimony that someone will 
say, we have done all we can do? Bin Laden is dead. There are 
hundreds of tribes in Afghanistan and everyone has their own 
mission, talking about the tribes.
    I hope that sometime in between now and 2014, if things are 
not improving or they are fragile like they are now, somebody 
will come to Congress and say the military has sacrificed 
enough; the American people have paid enough; and somebody 
would shoot straight with the American people and Congress.
    Do you know what type of metric--I will ask you both of 
you, Dr. Miller and General Allen--what type of metric that you 
would see that you would come back to Congress and say, our 
troops have done everything; we can declare victory now. But 
there is one thing we cannot do, and that is change history, 
because Afghanistan has never changed since they have been 
existing.
    And I will I yield to your--a minute and 41 [seconds] to 
you both. Thank you.
    General Allen. I think that is a very important question. 
And as you have, I have visited the wounded in Bethesda as 
well. There are many of those young troops--as the lance 
corporal you talked to the other day--who are very, very 
dedicated to this mission.
    They want to see it be successful. They want their 
sacrifice to have meaning. And I think this campaign is going 
to give their sacrifice meaning.
    We are on track to have the ANSF move to the lead. That is 
what we want. That is what we want success to be in 
Afghanistan.
    Mr. Jones. General, if I may interrupt you one moment, if 
we get into 2014 and see that President Obama or a Republican 
president, and the Afghans are not trained to where they need 
to be, and we are spending money, we are losing lives, will you 
be honest with the next administration and say to the next 
administration, you need to stay to the timetable, because we 
have done all we can do?
    You are not going to change history?
    General Allen. Congressman, I will be honest with you now 
and I will be honest with that next administration. I mean, it 
is my obligation. It is my moral obligation to ensure that this 
force is resourced and that this force is committed into a 
strategy that I think will work.
    And I believe this strategy will work. It is not about 
American forces or ISAF forces, even, fighting right to the 
very end of 2014 and bearing the burden of this campaign. This 
campaign very clearly envisages that the ANSF will move to the 
front; the ANSF will have the lead; the ANSF will secure the 
population of Afghanistan.
    And if I think that is coming off the rails, Congressman, I 
will let you know that.
    Mr. Jones. Thank you, sir.
    The Chairman. Thank you.
    Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    Mr. Miller, General Allen, thank you for your testimony 
today.
    General Allen, many observers have noted that corruption is 
endemic to Afghanistan and that this corruption feed predatory 
power brokers and mafias who have co-opted the state.
    Over the years, we have made occasional efforts at 
combating construction, like setting up task-force transparency 
in Dari. But judging from recent news stories about billions of 
dollars in cash being flown out of Afghanistan every year, the 
former head of the Kabul bank going free, and Afghan National 
Army helicopters possibly being used to smuggle drugs, it 
doesn't seem like we are making much progress.
    What can you tell us about successes to address corruption? 
And do you believe that these efforts will actually address 
corruption, especially the kind of predatory corruption that 
feeds on common people sufficiently to allow the Afghan 
government to function after 2014?
    General Allen. Ma'am, that is a really important question. 
And we should not be surprised that there is corruption in 
Afghanistan.
    After 30 years of virtually every institution in that 
country having been destroyed in some form or another, whether 
it was from the communist coup or the Soviet invasion or the 
civil war or the Taliban darkness, an awful lot relied 
ultimately on the wiles of patronage networks, which became 
criminalized over time.
    The question isn't whether they exist or not. The question 
is whether we can ultimately oppose the influence of those 
criminal patronage networks and restore a system of the rule of 
law and credibility and integrity to the Government of 
Afghanistan.
    And I have no illusions about how difficult that will be. 
And the efforts that we undertake in ISAF to address those 
efforts, those influences, I think have begun to take shape in 
important and meaningful ways.
    Since I have been in Afghanistan, through the use of Task 
Force Shafafiyat Transparency; through Task Force 2010, which 
has done a great deal about contracting and ensuring 
transparency in contracting; and in direct conversation with 
President Karzai, we have taken steps and President Karzai has 
appointed a presidential executive commission to partner with 
us, for example, to begin the process of removing organized 
crime from borders, inland customs depots and airports.
    The process of being able to do that will recoup 
substantial amounts of revenue to Afghan government coffers. It 
will reduce the very thing that you mentioned about the flying 
of cash out of Afghanistan. And President Karzai, who talks 
publicly and often about this culture of impunity, has, in 
fact, commissioned a presidential executive commission to 
partner with us in that process.
    And we are starting that process now.
    I think importantly as well, both of the security 
ministries--the Ministry of Defense, the Ministry of Interior, 
led by the Ministry of Defense--has just completed something 
called a Transparency and Accountability Working Group.
    This has been a complete inventory of all of the functions 
within the Ministry of Defense, all the way from systems 
acquisition to personnel assignment. And they are looking to 
remove criminal capture and criminal influence from both of 
those security ministries.
    And that is a very important step as well, ma'am.
    Ms. Bordallo. General, I have a follow-up question.
    General Petraeus cited this exact case as a success story 
over a year ago. Has the Afghanistan general been tried yet or 
have any high-profile or senior officials who have been 
protected or members of these criminal patronage networks been 
tried?
    You didn't specifically mention this, but this was an 
Afghan army surgeon general.
    General Allen. Short answer is, ``No,'' ma'am.
    The longer answer is: I went to see Minister Wardak. I 
wrote a letter to the President. I presented the evidence of 
this case to the palace. And there is now a comprehensive 
investigation under way about the National Military Hospital, 
which we hope will ultimately result in irrefutable evidence 
for the prosecution of the commander of that hospital.
    The jurisdiction needs to be determined, whether it will be 
tried through the Attorney General's Office or through military 
jurisprudence. But that is a technical outcome.
    And the investigation is under way at this time. I think 
that is a great step forward, frankly.
    Ms. Bordallo. It has been a year.
    General Allen. And the investigation has only been under 
way for several months. And I am very glad to see that it is, 
ma'am.
    Ms. Bordallo. Thank you very much.
    And I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    Dr. Miller, thank you for being here.
    General, we appreciate you being here.
    And I support what you do. The only thing is, sometimes up 
here we talk about winning and losing and we are asking 
questions that the American people will say, ``That is not 
really the question I wanted to ask.''
    And, you know, one of the realities we deal with is that 
Congress spent $825 billion on a stimulus package and we are 
spending $345 billion for the interest on that. And we are now 
taking almost that exact sum out of national defense in the 
country.
    And as a result, we are hearing that carriers are going to 
be postponed. We are taking ships out of commission. We are 
reducing weapons systems and force structure. And everybody 
that comes up says we have to do that because of the budget we 
are dealing with.
    So the question I hear from a lot of folks around when I 
talk about Afghanistan is this. You said earlier that the 
actions we have had there have made Americans safer. You are 
the best person we have to articulate how that has happened.
    How would you tell the average American that what we have 
done in Afghanistan has made them safer? And then how would you 
justify the fact we should continue spending money there as 
opposed to the ships, the weapons, the force structure that we 
see being reduced here?
    And then the final one is this. What assurances do you see, 
or what are your projections as far as the economy in 
Afghanistan after 2014 to be able to sustain the investment 
that we have put there?
    And I am going to give you the rest of my time just to 
respond to that.
    General Allen. I may call upon my wingman here to give me a 
bit of assistance on the policy sides of this.
    We remain in hot pursuit of any presence of Al Qaeda in 
Afghanistan. And there is some Al Qaeda in Afghanistan, but we 
want them on their back heels. And they know we are in pursuit 
and we are aggressively looking for them, and when we find 
them, we will deal with them. That is the first way that 
Americans are going to be kept safer.
    Second is we are going to continue to pressure the 
insurgency. We are going to continue to create the opportunity 
for the Afghan National Security Forces to be the defeat 
mechanism of this insurgency because our goal beyond ensuring 
that Al Qaeda cannot use Afghanistan as a launching pad for 
international terrorism, is to provide the security to the 
state for the development of democratic institutions and 
ultimately economic opportunity.
    And so with a stable Afghanistan, Americans are safer. With 
us in hot pursuit of Al Qaeda, Americans are safer. So I 
believe that Americans can see that the results of the 
sacrifices that have been made by the American people to 
resource this was have in many respects a direct-line 
relationship to 11 September, 2001, where, unimpeded, the 
Taliban provided safe haven to Al Qaeda, which plotted and 
ultimately executed the attack upon the United States on that 
day from the safety of Afghanistan.
    It is going to be very difficult for that to occur today, 
and it will be our hope that in the end, a stable Afghanistan, 
guarded by a credible ANSF, will make it impossible for it to 
happen in the future. But that is in the future and we will 
continue to work at that, sir.
    You asked about the money for the support of the campaign 
versus potential decisions for program tradeoffs. Clearly, 
those are decisions that will be made by the Secretary of 
Defense, in consultation with his service chiefs and the joint 
chiefs--the same people in most cases.
    But I have to thank you all. I have to thank the Congress 
of the United States, and through you, as the elected 
representatives, the American people for having resourced this 
campaign.
    We really need nothing. We want for nothing, for the great 
support that you have given us; support that we have received 
through the CERP [Commanders' Emergency Response Program] 
program and for the Afghan Infrastructure Program; the great 
support that we have received in the armor that has been 
provided to us through the MATVs [MRAP All-Terrain Vehicle] and 
the MRAP [Mine Resistant Ambush Protected] systems.
    We have been very, very well provided for, and I know that 
the service chiefs remain in their way committed to continue to 
provide us the weapons systems, the capabilities and the well-
trained troops necessary ultimately----
    Mr. Forbes. General, I have only got about 30 seconds. 
Could you just hit the last part about--what is your forecast 
on the economy in Afghanistan and whether you feel that that is 
going to be sufficient in 2014 to be able to continue and to be 
able to continue the investment we have put there?
    General Allen. I think we need to watch this very closely. 
As I think you know, sir, there will be a conference that 
follows the Chicago conference. It will be in Tokyo which will 
be, in essence, an international conference that will look to 
gain money for development over the long term.
    After the Bonn II conference that occurred last year, there 
was a commitment by the international community to support 
Afghanistan through what they called ``a decade of 
transformation'' that follows the Lisbon transition.
    That decade of transformation, we hope, will see the 
international community provide the necessary support 
ultimately to the Afghan economy in the period of time after 
2014 so that we don't ultimately have the experience of an 
economic security issue as opposed to the security issue as it 
relates to a continued insurgency.
    Mr. Forbes. Mr. Chairman----
    The Chairman. Thank you.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    And thank both witnesses for your testimony.
    Some of the comments that have been made both in this room 
and outside this room have, again, sort of focused on whether 
or not the President's timeline that he laid out, you know, is 
somehow sort of putting at risk our policy and the successes 
that you have fought so hard to accomplish in Afghanistan.
    I would just like to again, if I could, go a little bit 
deeper in terms of, you know, what has already happened in 
terms of the troop recovery or drawdown. Again, we now have 
completed the initial 10,000 troop drawdown. I guess first of 
all, I just wanted to ask you, General, that now that we are 
some months past that, I mean, are you in any way--do you have 
any concerns about whether or not that reduction in force has 
hobbled your efforts that you have been describing here this 
morning as far as accomplishing the transition to the Afghan 
National Army?
    General Allen. The 10,000 that came out last year have 
not--I am still in the process of making the decisions with 
respect to the 23,000 that will come out.
    Mr. Courtney. Right.
    General Allen. I will be balancing in those decisions the 
amount of the combat power versus the headquarters, and the 
general manning and some of the task forces, et cetera. And I 
have to tell you that those will be difficult decisions, but I 
believe we can make that.
    Mr. Courtney. And the 10,000, which again is already a fait 
accompli, again, was that concentrated more on the headquarters 
and of the----
    General Allen. Many of them were.
    Mr. Courtney [continuing]. Allocation?
    General Allen. That is correct. And they are gone. They are 
already gone. They were gone by the end of 2011.
    Mr. Courtney. And when we talk about, you know, the 
leadership that you said is so critical for the Afghan 
military, I mean, one way that you stimulate leadership is 
with, you know, both sort of carrots and sticks.
    And certainly, you know, as we saw in Iraq, having a 
timeline can be a very healthy thing in terms of also when you 
are trying to accomplish a transition, that you are, again, 
telling people that they can't be dependent or count on, you 
know, the U.S. to always be there to provide their own security 
goals.
    And I guess, I wonder if you could just sort of talk about 
that a little bit, about whether or not having a timeline has 
also provided incentive for the Afghans to sort of step up 
their game?
    General Allen. It has, indeed, sir. And the value of the 
Lisbon transition process is that it is a process. It is 
something that is measurable. And as you know, the Lisbon 
transition process occurs over five tranches of terrain that 
comes off the map and ultimately goes into Afghan sovereignty.
    Each one of those tranches is accompanied by detailed 
conversations and conferences between ISAF and our ANSF 
partners to ensure that the security forces in those areas are 
postured and ready to take over the lead for security; not to 
be finished in terms of security, but the lead for security in 
those areas.
    It has, I believe, very seriously focused the conversations 
both in terms of the development of the ANSF and the resourcing 
of the ANSF, and in that sense, has been positive.
    Mr. Courtney. Thank you.
    I would like to just turn briefly to another topic which, 
when I visited with you last fall, we talked about--our group 
did--which was the issue of safe havens in Pakistan and the 
challenge that that poses with, you know, all of the good 
intent and great success in terms of training up Afghans--if 
the Taliban can sort of operate with impunity in and out of 
Pakistan, that really provides, you know, a real weakness in 
terms of accomplishing the goal of denying the Taliban the 
ability to overthrow the Afghan government.
    I was wondering if you could sort of update us in terms of 
what you are seeing right now in terms of trying to plug that 
hole.
    General Allen. It continues to be a threat to the campaign. 
As you know, it is--the nature of the Taliban in those safe 
havens differs, varies according to where they are 
geographically. I believe that, in the south, the southern 
Taliban elements out of the Quetta Shura Taliban have been 
successfully--their momentum has been successfully thwarted 
both by ISAF forces and the forces of the ANSF.
    It is in the east where I spend a great deal of my time 
focusing on the Haqqani Network and on the Tehrik-e Taliban 
Pakistan and other of the Taliban elements, the Commander Nazir 
Group in Paktika, the Haqqani Network in North Waziristan.
    So I spend a lot of my time dealing with that.
    As I said before, with respect to the numbers associated of 
the ANSF, in the end, I think it is less a function or a factor 
of what the numbers will be of the ANSF than it will be their 
posture over the long term.
    If we don't see some political outcome from reconciliation, 
which can have the effect ultimately of reducing the 
effectiveness and the effect safe havens; if we don't see 
Pakistani action to address the safe havens, then ultimate we 
are going to have to thicken the defenses of the Afghan people 
to provide as much friction as possible to protect the 
strategic center of gravity, which is Kabul and the security 
zone around Kabul.
    And we anticipate that that is probably going to have to 
become an outcome. We will be watching the campaign unfold this 
year and next year to determine ultimately, in consultation 
with our Afghan partners, how they will dispose their forces in 
the end.
    But the chances are very good that, if the issues in the 
Pakistani safe havens do not resolve in our favor one way or 
the other, we will probably have to have a larger presence of 
the ANSF than we had anticipated, which may require us to thin 
the ANSF in other places in Afghanistan.
    Mr. Courtney. Thank you, Mr. Chairman.
    The Chairman. The committee will recess for 5 minutes. And 
when we return, Mr. Wilson will be on for questioning. Thank 
you.
    [Recess.]
    The Chairman. Committee will come to order.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, General Allen, Dr. Miller, we sincerely appreciate you 
being here today. I am very grateful that in my home state of 
South Carolina, my former National Guard unit, the 218th 
Brigade, served for a year in Afghanistan.
    And, General, they felt like you, and commanded by our 
Adjutant General Bob Livingston, that they were working with 
Afghan brothers, that they were truly making a difference, they 
were helping train the security forces of Afghanistan to 
protect themselves.
    Additionally, this past weekend, I was honored to be at a 
deployment of personnel from the Army National Guard with 
General Livingston. They will be going as an agricultural team 
to help the people of Afghanistan develop their economy.
    And to see the military families there, the dedication, the 
service members, the veterans who came, it truly is the new 
greatest generation.
    With that in mind, I am very concerned that the Wall Street 
Journal last night reported that the Administration is offering 
a compromise regarding night raids in Afghanistan, and 
specifically that it would subject operations to advanced 
reviews by Afghan judges. One option under discussion in the 
talks would require warrants to be issued before operations got 
a green light.
    Can you comment on the accuracy of the report? Why is such 
a compromise in the interest of the United States?
    General Allen. First, sir, thank you very much for your 
comments on your troops. They are magnificent. And Bob 
Livingston is one of the great soldiers I have had the honor to 
serve with over time. And so thank you for the service of those 
troops in Afghanistan.
    So, I would like to decline answering the specifics of that 
question, because we are in very sensitive negotiations now on 
night operations.
    We do intend that night operations ultimately acknowledge 
the Afghan constitution and Afghan law, but the process 
specifically of the execution of night operations has yet to be 
negotiated. It is not my intention that night operations lose 
their momentum, which is really what gives them their 
effectiveness.
    And so any specific conversation about the issuance of 
warrants or the--or prior review of mission folders by judges, 
it is very premature at this point and in fact I have not been 
involved in any negotiation specifically about that at this 
point, sir.
    Mr. Wilson. And it had always been my hope that it is 
mutually beneficial to have night operations for the protection 
of the people of Afghanistan. And so best wishes on trying to 
get that point across. But they are the primary beneficiaries 
of having improved security.
    General Allen. And they do know that, sir.
    Mr. Wilson. Good.
    General Allen. They tell me that all the time.
    Mr. Wilson. I hope they do. Because when I read about it, I 
just--it is appalling that they would actually give a green 
light to the other side.
    Additionally, in your testimony you indicate that Iran 
continues to support the insurgency and fueling the flames of 
violence, particularly the Iranian influence of advising, 
training, supplying weapons, munitions.
    Which groups are they working with? Where in the country? 
What is Iran's goal?
    General Allen. They have operated primarily or worked 
primarily with the Taliban elements in the west. That is the 
only area in which we have seen the presence of support to the 
Taliban.
    Our sense is that Iran could do more, if they chose to, but 
they have not. And we watch the activity and the relationships 
very closely.
    You know, there is an ancient relationship between the 
Persian people of Iran and the Afghan people. In fact, today is 
the beginning of Nowruz, which is the Persian New Year. And 
there is real potential common ground between our objectives 
and Iranian objectives with respect to counternarcotics, arms 
struggling, human trafficking. There are a large number of 
Afghan refugees in Iran.
    There is the potential for common ground, for us to 
cooperate ultimately in the long-term benefit of Afghanistan. 
But I know that Iran and Afghanistan have a long relationship. 
It is a national relationship that President Karzai has, in 
fact, pointed to on a number of occasions that could benefit 
Afghanistan over the long term.
    The troubling part right now is the fact that there is some 
assistance that is going to the Taliban from Iran, and we seek 
to check that.
    Mr. Wilson. Well, again, I appreciate both of your service. 
Thank you very much.
    The Chairman. Thank you.
    Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman.
    And good morning to both of you; it is a pleasure to have 
you with us.
    I wanted to address the status of women and the impact on 
their lives as we transition to the Afghan National Security 
Forces and, in time, out of Afghanistan.
    In November, I met with several female Afghan 
parliamentarians who were here in Washington. All were members 
of the opposition. And while they acknowledged that progress 
had been made towards female equality in the post-Taliban era, 
particularly with regards to female education, they also 
expressed a number of concerns with roadblocks towards further 
reforms.
    So the decision made earlier this month by Afghan President 
Mr. Karzai to endorse a code of conduct that forbids women to 
travel alone in public, permits husbands to beat their wives is 
an outrageous affront to the rights of Afghan women and, I 
think, greatly undermines the significant progress that this 
brave group has made in the last decade.
    His decision to align himself with the Council of Clerics 
and their code really does cause great concern, since the same 
values we have sought and fought so hard to displace are being 
put forward as the future of Afghanistan.
    During a recent bipartisan delegation to Afghanistan I 
visited, along with a number of colleagues, with Afghan girls 
who hoped one day to become doctors, teachers and 
entrepreneurs, and with Afghan women who were training to 
become helicopter pilots in the Afghan military. It really was 
an extraordinary trip really and highlighted so well the 
advances that have been made for women.
    They wanted nothing more than to help provide for their 
families and contribute to the future success of their country. 
But in consigning these women to the status of second-class 
citizens, Mr. Karzai has turned his back on those who are still 
emerging from decades of abuse by the Taliban and I think 
threatens the future ability of Afghanistan to function as a 
stable democracy and an American ally.
    I am pleased that the Administration has taken some steps 
to deter some of the most egregious abuses of the Afghan 
government, such as temporarily cutting off financing for the 
Pul-e-Charkhi prison at the edge of Kabul, which has subjected 
female visitors to invasive body cavity searches, as was 
recently reported in the New York Times. However, this is an 
issue not yet resolved.
    So, my question is, as we draw down from Afghanistan over 
the next several years, what can we do to make sure that we 
don't lose the hard-fought gains for the rights of Afghan 
women, 50 percent of the population? And what, if any, leverage 
will we have as we go through this process and after our 
withdrawal is complete? And how do you see Congress being able 
to help the Administration preserve the gains which have been 
made?
    It seems to me, if we are seen as simply walking away from 
those gains, we have done not just the Afghan women, but 
ourselves a great disservice.
    So I ask Dr. Miller.
    Dr. Miller. Ms. Tsongas, thank you.
    Ma'am, let me answer in three parts, if I can. The first is 
to acknowledge that the Government of Afghanistan will not 
always do exactly what we prefer and what we wish.
    At the same time, we have and we continue to make clear our 
view that this is an important issue. And just as you said, 
that has been a consistent message from this Administration.
    It is often, in our view, more effective to do that less 
visibly. Sometimes it has been more visibly.
    Second, as you noted, over the course of this campaign and, 
in fact, even over the course of this surge, as we are seen 
improved security, there are very substantial gains that have 
occurred for women, including for education.
    When I was at Regional Command-South a couple of weeks ago, 
just one relatively in a sense small, but incredibly important 
fact--and that is that now 40,000 women are receiving an 
education that they were not just a few years ago in Kandahar.
    And third, I would say that while our fundamental national 
interest is to prevent the re-emergence of safe havens for Al 
Qaeda and to prevent the Taliban from coming back and 
displacing the Afghanistan government, over the long-term and 
indeed in the intervening period, part of the basis of our 
relationship with the Afghan government will include how it 
treats its citizens.
    And so this will remain a continuing conversation.
    Ms. Tsongas. And do you express a bright line in your 
conversations around some of these issues, so that it becomes 
very clear?
    The Chairman. Gentlelady's time has expired.
    If you will take that one for the record later?
    [The information referred to can be found in the Appendix 
on page 86.]
    Dr. Miller. Take it for the record.
    The Chairman. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Dr. Miller, General Allen, thank you for being here.
    General Allen, over the past several years, I have focused 
my attention on the Afghan narcotics trade as a major source of 
funding for the insurgents. In 2006, General James Jones, then 
the Supreme Allied Commander of Europe stated, ``the Achilles 
Heel of Afghanistan is the narcotics problem.''
    He went on to say ``I think the uncontrolled rise of the 
spread of narcotics, the business that it brings in, the money 
that it generates, is being used to fund the insurgency, the 
criminal element, anything to bring chaos and disorder.''
    In 2010, the United Nations Office of Drugs and Crime 
published a study showing that opium production rapidly 
increased from the period of 2006 to 2010. And I have a chart 
from CRS [Congressional Research Service] that summarizes that 
report. I am fond of holding up this chart and folding it in 
half. Because if you fold it in half, you can see that during 
the periods of the surge, if you will, of production, it nearly 
doubled over what the historical levels were prior.
    In a recent correspondence, you told me, ``The narcotics 
trade and its linkage to the insurgency contribute to regional 
insecurity, corruption, volatility in the rule of law and 
stagnation of economic development.''
    General Petraeus has agreed that it was a serious problem, 
noting that the trade financed roughly one-third of the 
Taliban's funding. General Mattis confirmed this number just 2 
weeks ago before this committee.
    In an attempt to confront this issue, I have discussed this 
issue with you, President Karzai, General Petraeus, General 
Mattis, and DEA [Drug Enforcement Agency], just to name a few.
    And in response to my question on this issue, General 
Mattis stated that, ``The U.S. Government and other 
international partners, including the Afghans, are reducing 
poppy cultivation and opium production in Afghanistan. Our 
interagency counternarcotics strategy supports a comprehensive 
set of actions to reduce opium production.
    ``That strategy includes numerous initiatives, campaigns 
and joint collaborative efforts that took years to create and 
implement.''
    And I want to complement you and your leadership on these 
efforts and on the apparent success. The United Nations Office 
of Drugs and Crime Winter Poppy Assessment for April 2011 
demonstrated an actual decrease in 2011 opium production.
    Further, in correspondence with General Petraeus last year, 
he told me that his forces have seen a 48 percent decrease in 
opium production. And in the first quarter of 2011, we saw a 
341 percent increase in drug seizures nationwide, compared to 
the same period ago.
    And I want to continue with the charts and the folding them 
over. This is the one that has been updated to show the fall. 
If you fold off the surge, you can see that you are back down 
to levels that once again represent historical level.
    And while I find these trends reassuring, I am concerned 
that the premature withdrawal of U.S. and ISAF forces in 
Afghanistan might reverse this trend and allow the insurgents 
to regain this lucrative source of funding.
    In fact, just 2 weeks ago, General Mattis stated that, ``We 
will create an Afghan National Army, Afghan National Police 
that has this capacity, if we continue on the track that we are 
on right now.''
    Your testimony before this committee today, in your 
capacity as commander, you stated that the progress in 
Afghanistan is real, sustainable, and that we have severely 
degraded the insurgency.
    General Allen, we are still pushing the programs to the 
degree that you stated in your earlier response, received in 
September, and receiving similar positive responses in the 
decreased levels of opium productions?
    Do you anticipate that these positive results will continue 
as we draw down our forces? And does the Afghan Army have the 
capacity to address these counternarcotic efforts?
    And if the Administration ignores the advice of its combat 
commanders and decides to accelerate withdrawal, what do you 
anticipate happening to the counternarcotics efforts in 
Afghanistan in the future?
    And then one last question; it is my understanding that 
this issue of narcotics in Afghanistan will not be on the NATO 
summit agenda, although the NATO summit agenda is described as 
an Afghanistan agenda. It would seem to me, with all of the 
references and understanding of how this contributes to the 
insurgency, the Taliban instability, that it would be high on 
the list.
    General.
    General Allen. It is my intention to preserve, to the 
maximum extent that we can, the gains that we have made in both 
the interagency approach to counternarcotics, both on the U.S. 
side, but also the interagencies capabilities that have been 
built into the Afghan side as well--the counternarcotics police 
of Afghanistan, the vetted investigative units, the high-end 
special police units within the General Directorate of Police 
Special Units, the GDPSU of the MOI [Ministry of Interior].
    There are a variety of units that are gaining, both in 
capabilities and in skills--that have grown as a direct result 
of our advisory capacity and our partnership capacity with them 
as well.
    Operations such as Kahfa Kardan, which I think you probably 
are aware of, which was a comprehensive counterdrug operation 
last year. We intend to undertake a similar operation again 
this year.
    So it is my intention to remain committed to use both the 
interagency resources that we have in country, in close 
partnership with the U.S. embassy and with other international 
partners there, to continue to develop the capabilities of the 
Afghans themselves, both to interdict the cultivation of 
narcotics, but also the production of drug products and the 
shipment and the movement of those.
    It is my intention to remain on track in that regard. There 
is no signal to me that there is going to be an accelerated 
drawdown of the forces necessary to continue to support those 
processes as well.
    And I will have to check into the NATO summit agenda to see 
if there might be sub-points which could, in fact, be the 
opportunity to discuss this issue, sir.
    Mr. Turner. Thank you very much.
    The Chairman. Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being here today.
    In the aftermath of the mistaken burning of Muslim holy 
books by American military forces, followed by the massacre of 
16 innocent civilians, 9 of whom were children, apparently at 
the hands of an American soldier, Americans as well as Afghan 
citizens are outraged.
    This climate of hostility can lead to bad things happening. 
Insofar as the American soldier accused of committing this 
massacre is concerned, it should be kept in mind that America 
has asked much from our American soldiers in the field.
    This particular gentleman who stands accused, I understand, 
has been deployed four times to Afghanistan and also to Iraq. 
And I would imagine that his state of mind would be a question 
that will have to be answered by the factfinders when the trial 
comes up.
    And so I would just simply ask that we not yield to the 
instinct to throw the soldier under the bus and wash our hands 
of the fact that he has been put in a situation that many 
people would snap under.
    So that would be my statement as far as that is concerned. 
I think he deserves the presumption of innocence that the 
Constitution entitles he as well as us to.
    General, we are in the process of gradually drawing down 
U.S. forces and transitioning responsibility to Afghan forces. 
And you have stated that progress is being made in terms of the 
development of the Afghan security forces, the security gains 
that have been made, economic development occurring on the 
ground, largely due to U.S. aid.
    Governance is improving. And you also commented that the 
acts that I just talked about--the two recent acts--they do not 
accurately characterize the overall impact, positive, of United 
States involvement.
    Now, it has also been alleged that President Obama made a 
key blunder, for lack of a better word, in setting forth a date 
that American combat troops would be withdrawn, the last of 
them. So we have got about 18 months before that happens.
    Do you think that that has been a good thing, the 
announcement? Has that been a good thing or a bad thing in 
terms of on the ground in Afghanistan?
    General Allen. Well, thank you for that question, and thank 
you for your comment on Staff Sergeant Bales. And I assure you, 
the investigation will be thorough, and we do operate from a 
presumption of innocence. It is the nature of who we are and it 
is the nature of our Constitution. And thank you for that 
comment, Congressman.
    We are going to have combat forces in Afghanistan to the 
end of our deployment, to the end of 2014. But we fully 
anticipate, though, that in 2013, as the ANSF continues to move 
to the lead and as the fifth tranche of transition occurs, 
which, according to the Lisbon conference, technically means 
that the ANSF are in security lead across the country, our 
forces will move into a support roll to continue to accelerate 
and to support the ANSF as it completes the security transition 
out to the end of 2014.
    So we will still have combat forces in Afghanistan all the 
way to the end. They will be fewer in number, and the nature of 
the forces will be in many respects advisory in nature, but we 
can anticipate that the U.S. will be engaged in combat 
operations in support of the ANSF in the lead right to the end 
of 2014, sir.
    Mr. Johnson. Has it hurt us or helped us?
    General Allen. I think it has helped us to focus on the 
mission. I think it has helped the Afghans to focus on their 
need to become proficient and to move into the fore. And on the 
whole, in the end, I think it has been beneficial. And it is 
not just been a unilateral U.S. decision. It has been an ISAF 
decision. Forty-nine other countries have joined us in this.
    Mr. Johnson. Thank you, sir.
    The Chairman. Thank you. Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    And, gentlemen, thank you for being here.
    I want to add I don't think my colleague from Georgia 
intentionally left off the outrage we all feel of the 13 men 
killed in the ``green-on-blue'' incidents as a result of that 
litany of things that went wrong, including one specialist, 
Payton Jones, who was laid to rest Saturday in Marble Falls, 
Texas.
    General Allen, there are those on this committee and on 
both sides of these buildings that are openly calling for a 
reassessment now and a quicker drawdown of troops out of 
Afghanistan, that is quicker than what is currently planned 
under all the other agreements.
    I would also like just to parenthetically mention I have 
never heard anybody say that us staying in Afghanistan forever 
was even a remote option. So my colleagues who have constantly 
pounded that away this morning--I am not sure where they have 
got that idea--but back to my point.
    I understand that, after October 1, you will do an 
assessment of how to handle the 68,000 who are there and the 
mission all the way through the end of 2014.
    If suddenly now the Administration announces, without your 
input, that they are going to change the parameters with which 
you get to work, the number of people you are working with and/
or the capacity that you will have in place during this 
transition, what impact will that have on our ability to be 
successful with those reduced resources and/or a different 
model that is remarkably different than what you are currently 
planning to use?
    General Allen. First, there is no indication that the 
Administration is planning to----
    Mr. Conaway. Well, there are those in the legislative 
branch, though, that are pushing that, and sometimes that has 
some impact, not often.
    General Allen. It would ultimately be a function of what 
the number would be. But the nature of the relationship that we 
have right now is that the conversation about what combat power 
is necessary, what the force structure ought to look like, is a 
strategic conversation. I have been given no indications that 
there is a number that will ultimately be detailed to me to 
build a strategy around.
    And so, while I could----
    Mr. Conaway. But a number that is different than the Lisbon 
agreement?
    General Allen. That is correct.
    Mr. Conaway. Okay.
    General Allen. So, at the end of the recovery of the phase 
two surge forces, as I mentioned and as you correctly stated a 
moment ago, I will give the President my best military advice 
with regard to the combat power that we will need to accomplish 
this mission, probably in 2013. I am not sure that I would be 
able to see out to 2014 at that point, but I would probably 
have a pretty good feel for it.
    Mr. Conaway. Okay.
    General Allen. But it isn't just a function of U.S. forces 
because I will be giving a similar recommendation up the NATO 
chain to the Supreme Allied Commander of Europe, Admiral 
Stavridis, but also to the Secretary General of NATO. So it 
will be a combined recommendation.
    Mr. Conaway. The proposed budget for 2013 drops the 
financial support for the training-and-equip mission from some 
$11 billion to $5 billion. Is that a reflection of the fact 
that we are coming to the end of that work and we need less 
resources, or is that budget driving the train as opposed to 
what is happening actually on the ground, meaning you need less 
resources?
    General Allen. Much has already been purchased by them, and 
so we are really fielding the equipment less--more so than 
buying the equipment at that point.
    Mr. Conaway. Dr. Miller, can you give us some indication of 
what the impact on the Afghan economy has been, from the care 
and feeding of ISAF forces being in place, and what is going to 
replace that in their economy when that number is dramatically 
less after 2014?
    Dr. Miller. Sir, yes. Let me first just add to General 
Allen's comments on the ASFF [Afghanistan Security Forces Fund] 
funding.
    In addition to us having reached a certain point with 
respect to the purchase of equipment, General Allen and his 
team, supported by CENTCOM [Central Command], supported by the 
Joint Staff and the Office of the Secretary of Defense [OSD], 
they have done a hard scrub and looked at, as we transition, 
what is not just the number but size and type of equipment that 
is necessary as the Afghans begin to increasingly take 
leadership, so a very in-depth scrub, and credit to General 
Allen and his staff for leading that effort.
    With respect to the specific impact of U.S. presence on the 
economy, if I could, sir, I would like to take that for the 
record and get you our best estimate. I don't have a good 
number that would take account of----
    [The information referred to can be found in the Appendix 
on page 86.]
    Mr. Conaway. But it would have to be broader than just U.S. 
presence. As the general pointed out, rightfully so, this is an 
international effort. So it is really the ISAF forces in total 
that will be leaving at some point in time.
    So, obviously, this 10-year plan to strengthen, or to 
support the Afghans after this transition is going to be--
Afghanistan after this transition is going to be really 
important, because I don't think that the current level of 
funding, for whatever reason, is going much beyond the near 
future.
    So I yield back. Thank you, Mr. Chairman.
    The Chairman. Mr. Critz.
    Mr. Critz. Thank you, Mr. Chairman.
    Dr. Miller, General Allen, thank you for being here and for 
your service.
    I missed the point--Mr. Turner had asked about poppy 
growth. Can you give me a specific as to how much less poppy 
growth there is going on in Afghanistan now as compared to when 
it was at its peak?
    General Allen. Let me take that question and I will get you 
a definitive answer on that which give you some of the history 
and where we are today and incorporates, both for Mr. Turner 
and you, the sense of where we think we will be going both in 
terms of Afghan security force development that supports 
counternarcotics.
    [The information referred to can be found in the Appendix 
on page 85.]
    Mr. Critz. Right. Can you tell me what has replaced poppy 
growth in the places that we know it has been eradicated?
    General Allen. There have been a number of crops--wheat, 
pomegranate, what we would consider to be normal agricultural 
cash crops.
    Mr. Critz. Now, I understand that pomegranates--there is a 
lot of infrastructure needed to do the----
    General Allen. That is correct.
    Mr. Critz. Is the infrastructure in place?
    General Allen. It is going to be a long-term development 
for them.
    Mr. Critz. Long term meaning----
    General Allen. Years.
    Mr. Critz. 5? 10?
    General Allen. I can't tell you. Again, I will add that 
into the question I take.
    Dr. Miller. Mr. Critz, I also will contribute to adding 
more detail to the record, but it is absolutely a very long-
term prospect and it is expected to be 10 years-plus.
    If I could, I want to, while I have got the floor on this 
issue, thank the committee for its support of the task force on 
Business and Stability Operations.
    Dr. Miller. That is $150 million this year of Department of 
Defense money that is going to help helping economic 
development in Afghanistan, in close partnership with USAID, 
but in fact looking at both long-term prospects, for example, 
for minerals that could help turn the corner, or help at least 
improve their posture long term, but also looking at some of 
these agricultural enterprises how to encourage them to move 
forward and how to bring in capital that will help them be 
sustainable over time.
    Mr. Critz. Okay. Well, talking about sustainability, that 
brings me to--my next question is as I noticed in the reporting 
that the ANSF is going to be about 352,000 people at some 
point; ANA [Afghan National Army] being 195,000; ANP [Afghan 
National Police] being about 157,000.
    General, in your estimation or in your actually expert 
analysis, the growth and the development of noncommissioned 
officers within the ANSF and the growth and expertise that is 
growing within the junior officer corps, are the numbers there 
to support a force that is this large? And then, going forward, 
is the economy of Afghanistan strong enough to support a force 
this size?
    So first, I want to know about what you see within the 
military itself, the expertise and capabilities, and then from 
an economic standpoint as well.
    General Allen. It is an important question, and the answer 
is at this juncture, we are still building the NCOs [non-
commissioned officers] and the junior officers and that is 
going to be for some time.
    Mr. Critz. Okay.
    General Allen. The good news is that the schools are in 
place now, that the curricula are coming on-line and we are 
building a noncommissioned officer and a junior officer that is 
steeped in the kinds of capabilities that we need the ANSF to 
have.
    And I believe that we all recognize that the Afghan economy 
is going to, for some period of time, require international 
community assistance in order to sustain the ANSF.
    There is, as we all know, and the Task Force for Business 
and Stability Operations has done great work in this regard; 
there are substantial resources underground in Afghanistan. It 
is going to take a number of years before the process 
ultimately of the extractive industry coming online can produce 
the kind of revenues to support an ANSF with capabilities.
    And so at this point, no, but the international community 
has indicated the desire to continue to support the ANSF over 
the long term.
    Mr. Critz. Okay. And that builds to my next question, which 
is--2014 is the next presidential election, and we have been 
talking about corruption, patronage networks.
    Is the central Government of Afghanistan at a point now as 
we begin this drawdown towards 2014, or as we set up the 
process, is the central Government strong enough to sustain the 
infrastructure needed?
    I mean, obviously, we are doing a COIN [counterinsurgency] 
operation throughout Afghanistan, so this is not one big army 
that marches across the country. This is a series of different 
little fiefdoms, for lack of a better term, that feeds right 
into that patronage and corruption sort of model. So is that 
central Government strong enough cohesively to hold that all 
together?
    And I see I am almost out of time, so if you want to answer 
that for the record, that would be fine.
    General Allen. We will take it for the record.
    [The information referred to can be found in the Appendix 
on page 86.]
    Mr. Critz. Okay. Thank you, sir.
    And I yield back.
    The Chairman. Thank you very much.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Dr. Miller, General Allen, thank you so much for joining us 
today. Thank you for your service to our Nation and for your 
leadership.
    General Allen, I want to go to you and pick up some of the 
words from your testimony. You stated that throughout history, 
insurgencies have seldom been defeated by foreign forces. 
Instead, they have been ultimately defeated by indigenous 
forces and then secured by the forces there in the country. And 
in the long run, our goals can only be achieved and then 
secured by Afghan forces. Transition, then, is the linchpin of 
our strategy, not merely the way out.
    Let me ask this. How do you make sure that the linchpin 
doesn't break? And as you have stated, this has been a long and 
difficult and costly campaign. How do we make sure in the 
transition that there is enough time and space for the ANSF, 
the Afghan Local Police, the Government, in fact, to make sure 
that they are stood up and they can actually have a chance of 
being successful in pushing things forward?
    And then as a follow on to that, as you are looking at 
conditions on the ground, what will you be considering as far 
as capabilities of the Afghan National Security Forces, the 
capabilities of the enemy, as you plan for the drawdown of our 
troops?
    General Allen. The process of transition, as you know, 
occurs across several different tranches. And then each one of 
those tranches before they are announced, we go to significant 
levels of detail of planning both on the ISAF side, but also in 
partnership with the Afghan coordinator for transition, Dr. 
Ashraf Ghani, who has done, frankly, magnificent work in the 
process of leading transition.
    But also very significantly, we spend a great deal of time 
with the Director of National Security, engineer Nabil; with 
General Wardak, the Minister of Defense; and with General 
Mohammadi, who is the Minister of Interior. And we look very, 
very carefully at those areas that are transitioning to ensure 
that the ANSF elements within those areas have the capacity to 
handle the security environment that they will ultimately have 
to face as that particular area transitions.
    For example, in tranche one, it was the very first one. We 
chose areas that were relatively secure at the time where the 
ANSF seemed to be in pretty good shape. Because this was the 
first one, this was all new. What we have discovered is that in 
fact all of those areas are actually in very good shape right 
now.
    Tranche two is in the process of transition now and we are 
in the process of formulating tranche three. We are looking 
very carefully to ensure we don't over-burden the ANSF core 
command with too many regional areas in one particular area. We 
are looking very closely to see that there is a coherent 
partnership with the ISAF forces to be a safety net, if 
necessary, to ensure that is no regression when the time comes 
for the transition.
    So we watch it very closely. And then we monitor those 
areas once we have begun transition to ensure that it is an 
irreversible process. And we are going to do that throughout 
all five tranches.
    With regard to the conditions on the ground, obviously I am 
in constant contact with our intelligence organizations. We are 
watching very closely the state of the insurgency inside 
Afghanistan. We are looking very closely at the state of the 
insurgency inside Pakistan. I think we have had some very 
important indicators just this year.
    On 1 January of 2011, there were only 600 of the Taliban 
that had reintegrated. On 1 January of 2012, well over 3,000 
had reintegrated, and today there is over 3,600, with another 
400 in the pipeline ultimately seeking to reintegrate.
    That says something about the insurgency at the grassroots 
level. And because so much of the insurgency is not an 
idealistic insurgency or a religious insurgency, as much as it 
is an insurgency that reflects dissatisfaction locally, that 
tells us a number of things.
    It tells us that the foot soldiers in many respects are 
just tired of the fight and they want to go home. And they are 
going home and they are assimilating back into their 
communities.
    It also tells us that the nature of who it is they have to 
oppose, which is an increasingly capable and pervasive Afghan 
National Security Force, is the force that they don't want to 
have to fight, and so they are going home. And also now they 
have got opportunities with improved local governance and 
improved economic opportunity at the local level.
    It is not the same all across the country and there have 
been setbacks in some places in the country, but many of the 
grievances that ultimately sent many of these insurgents to 
join the Taliban and the insurgency--I think we can take some 
positive indicators away that the conditions have changed in 
some respects that prompts both the advent of the Afghan Local 
Police very quickly in many of these populations, but also the 
large numbers of insurgents who have reintegrated.
    Mr. Wittman. Thank you, Mr. Chairman.
    The Chairman. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    First of all, Dr. Miller, when you look at the end-state in 
terms of, let us say, our conventional ground combat units are 
gone from the country. I suspect we would still have after 2014 
maybe some advisory presence, some light footprint, maybe some 
special operations personnel to do counterterrorism operations.
    What would you estimate the cost of that to be?
    Dr. Miller. Mr. Coffman, your sense of the likely missions 
appears right to me, including counterterrorism and the train, 
advise, and assist mission. At this point, it is impossible to 
give either the----
    Mr. Coffman. I am sorry. I am referring to the cost to the 
U.S. taxpayer or the cost of international support to the 
Afghan government to sustain their security forces and what 
support that they would expect after 2014.
    Dr. Miller. I see.
    We have had discussion about what the appropriate and 
necessary sustained level of contribution is for Afghan 
national security forces over time. As we had discussed 
earlier, you can think of it in a sense as what is the 
approximate cost to sustain at 352,000; which is where we are, 
which is 330,000 today and growing to 352,000 for ANSF?
    There is a cost associated with that, and we are looking 
toward the international community to begin to pay a portion of 
that, at least starting on the----
    Mr. Coffman. Is it $4 billion? I have seen that figure. Is 
it $4 billion?
    Dr. Miller. To sustain at 352,000 we expect it would be 
more than that.
    Mr. Coffman. More than that.
    Dr. Miller. To sustain at a lower number that it would be 
further down the road at a point in time when the insurgency 
had been further degraded and smaller, the number of $4 billion 
or a little over has been certainly part of the conversation, 
but I don't believe that that is certainly at this point either 
the final answer for the cost of a given force, nor do I think 
it reflects a final answer on the implicit size of a force that 
is required at a given point in time.
    So I would say that the number that we know today is that 
we are growing to 352,000 for the Afghan National Security 
Forces; that at some point we expect that will come down. We 
don't know the timing of that. And because we don't know the 
timing of that nor the levels that we will go beyond 2014, 
can't give you a good estimate of costs, although people are 
certainly making various estimates and some of those have 
accurately and inaccurately have appeared in the press.
    Mr. Coffman. General Allen, would you define our security 
objectives in Afghanistan as keeping Al Qaeda out, keeping the 
Taliban from taking over the country, and having some type of 
base of operations whereby we can launch counterterrorism 
strikes, such as the one we did recently in taking out Osama 
bin Laden?
    General Allen. I would be very careful about the third as 
an articulation. At this juncture, first of all, there has been 
no discussion with the Afghan government per se--a U.S. 
enduring presence post-2014.
    We anticipate concluding a strategic partnership accord in 
the not too distant future, and in conjunction with that 
conversation we will begin to have the discussions with the 
Afghans about what an enduring U.S. force might look like.
    At this juncture, the conversation is largely about roles 
and functions that might be undertaken. There will probably be 
a counterterrorism presence, but it will not be to operate in 
the region. It would be a counterterrorism presence to prevent 
Al Qaeda within Afghanistan from finding itself an 
operationally relevant safe haven, which it does not have now.
    Mr. Coffman. Thank you, General Allen.
    Let me just say I am torn on this mission. Having served in 
Iraq with the United States Marine Corps, I have been in 
meetings where we had to convince tribal leaders--or convince 
tribal leaders to cooperate with us knowing that if we let them 
down that they would be dead, that Al Qaeda would come back, 
the insurgents would come back and would kill them.
    And so I believe that we have a moral obligation here, even 
though I believe it was the wrong path for America, that we 
could have achieved our security objectives without this heavy 
conventional footprint on the ground without giving them a 
structure of governance that doesn't fit the political culture 
of the country, without trying to change their entire culture, 
and without trying to give them the economy that they never had 
at U.S. taxpayers' expense.
    And with that, Mr. Chairman, I yield back.
    The Chairman. Gentleman's time expired.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    General, at the start of the meeting one of the statements 
that you made was that our goal was to keep the Taliban from 
overflowing the Afghanistan government and deny Al Qaeda a safe 
haven. Those are two very distinctly different goals.
    And I would like to focus, if you will, on the overthrowing 
the Afghanistan government and in the ties that the Afghanistan 
government is making with China. And many reports out there 
suggest that China has supported a peace process between the 
Taliban and the Afghanistan government.
    And if you look at the amount of foreign aid the U.S. 
Government has sent to Afghanistan, it is somewhere around $48 
billion, where China has done approximately $58 million. There 
is approximately $1 trillion worth of natural resources in 
Afghanistan. The contract seemed to be being signed with China 
for China to actually receive the contracts and the benefit, 
the financial benefits there, of, quite honestly, a lot of loss 
of life and blood and money from the U.S. taxpayer.
    And I guess my question is, if China is the one that has 
set themselves up to reap the windfall and the rewards from the 
natural resources of Afghanistan and the United States is not 
going to have trade ties, if you will, for anything other than 
essentially trinkets and rugs, why shouldn't China bear the 
cost of ensuring that the Taliban doesn't overturn the 
Afghanistan government instead of the U.S. taxpayer?
    General Allen. Well, it is an important question, and I 
would not disagree with you that China ought to be asked to 
provide some of that support in the long term.
    But, of course, there are other countries that are involved 
ultimately in Afghanistan's future, and Afghanistan is choosing 
to have relationships with them as well. The Indian government, 
for example----
    Mr. Scott. Yes, sir.
    General Allen [continuing]. With whom we have very strong 
relations, appears to be poised ultimately not just to have a 
substantial economic interest, perhaps even eclipsing the 
Chinese interest, but a strong economic interest in 
Afghanistan, but also has long-term ties, very healthy and 
friendly ties with Afghanistan and, in fact, is offering to 
support the development of the Afghan National Security Forces.
    So I think it is not just a matter of China. I think that 
there are going to be other international factors that are at 
play in Afghanistan.
    Mr. Scott. General, if I may, you said that India has 
offered. I assume there is a financial number that India has 
offered to help with the Afghanistan forces? Has China offered 
a significant dollar figure, or is it----
    General Allen. I will have----
    Mr. Scott [continuing]. Just that they want the resources?
    General Allen. I will have to do the research for you on 
that. I will take that question.
    Mr. Scott. Dr. Miller.
    Dr. Miller. Mr. Scott, if I could just add that obviously 
we want the Afghanistan economy to improve over time. We want 
it, over time, to be self-sufficient. We have talked about that 
being a long road.
    What we expect for the United States is that we are able to 
compete on a level playing field and that our companies can go 
in for the extractive industries and for all the industries, 
not just the localized smaller-scale ones. And we have made 
that expectation clear, and our companies have had an 
opportunity to compete.
    Part of helping Afghanistan take those next steps, get on 
its feet economically over a long period of time is, in fact, 
going to be to help it create those opportunities 
internationally, not just for the United States but for other 
countries as well.
    Mr. Scott. Dr. Miller, if I may----
    Dr. Miller. And I believe that we will compete very 
effectively over time.
    Mr. Scott. From my standpoint, I am not talking about 
exploiting Afghanistan. I am talking about the fact China is 
essentially exploiting our men and women in the military and 
the United States taxpayer by having us pay the burden in both 
blood and money for, quite honestly, an area where China is 
going to be the one that reaps the windfall benefits of 
stability in Afghanistan.
    And if they are not willing--I don't understand where the 
benefit to the U.S. citizen comes in spending $10 billion a 
month if 21 months from now the end result is going to be the 
same. We are going to be out of there. We will have lost more 
men, more women. We will have spent more money. And yet China 
is going to step in. China is capable of stepping in right now.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank all of you for being here.
    General, appreciate your team being here. I know when you 
put on that uniform you do a great deal for the cause of 
freedom. I have to point out a special greeting here to 
Commander Brook DeWalt, who has been a friend of mine for a 
very, very long time, ever since he was a little boy. No, that 
is not quite correct. But thank you for being here.
    And I wanted to suggest, first of all, that it is my 
opinion, and there is context here, that the date certain in 
the drawdown as articulated by the Administration in my 
judgment has had a detrimental effect on our overall mission 
here and put some of their commanders on the ground in a 
difficult position.
    But I wanted to follow up with Representative Wilson's 
question regarding malignant Iranian influence in Afghanistan. 
You responded that there is potential for common ground between 
us and Iran to cooperate for the long-term benefit of 
Afghanistan.
    And you stated that you are seeking to check the negative 
assistance between Iran and Afghanistan.
    And I guess my first thought is, do you think this is 
possible, or is--this common ground between us and Iran is 
possible, given the leadership in the current Iranian regime?
    And how does the long history between Iran and Afghanistan 
provide any sort of a basis for leveraging events in favor of 
our national security?
    Do you know for certain that we are effectively checking 
negative assistance by Iran to the insurgency?
    And the overall, then, question is, is it wise, in your 
opinion, to proceed with the current drawdown given the Iranian 
government's support to this insurgency in Afghanistan?
    A lot of questions there; sorry I threw them all at once.
    General Allen. We are seeking to understand exactly what 
Iran is doing in Afghanistan. But we also understand that Iran 
and Afghanistan have their own bilateral relationship. And that 
is an ancient and a, in many respects, productive relationship 
for Afghanistan.
    I will not take issue with the fact that the Afghan 
government has a relationship with Iran. My issue is primarily 
in the area of security and what we understand to be Iranian 
assistance to certain elements of the Taliban.
    It has not been dramatic. It has not been pervasive. But we 
seek to understand it, and we have interdicted that assistance 
on a number of occasions. And so we will continue to watch it 
very closely. We will see if it is modulated, if it is 
increased or if it becomes more pervasive, then we will have to 
take actions as necessary within Afghanistan to continue to 
check that process.
    Mr. Franks. Dr. Miller, did you want to weigh in on that?
    Dr. Miller. If I could just add very briefly, as you know, 
sir, the Iranian government has also provided not only 
rhetorical but material support to the Afghan government.
    And so what we see is, in many instances, a positive 
influence, but then, just as General Allen has talked about, at 
the same time, in another part of the country, we have seen 
Iranian support for the insurgency.
    So what we would obviously like to do is to encourage 
continued support for the Government in Kabul and to, through 
various means, including the interdiction that General Allen 
talked about, reduce to a minimum, attempt to eliminate any 
incentives for support to the insurgency.
    Mr. Franks. I guess it just occurs to me, given, you know, 
Iran's history of making IEDs to blow up our troops in Iraq 
shouldn't engender a great deal of trust on our part to the--
you know, the potential of using the longstanding relationship 
between Afghanistan and Iran to our benefit.
    I am not sure that there is a real basis for that. But, I 
mean, I defer in this case to the people on the ground. I am 
just suggesting that there seems to be a general pattern here, 
and I am just wondering what the drawdown and the date certain 
has done to the overall--at least the psychological array of 
our enemies' attitude toward continuing to resist the efforts 
of freedom there in Afghanistan.
    General, if you have any other thoughts?
    General Allen. I was just going to say that we have not 
seen the Iranian signature weapons in Afghanistan that we saw 
frequently in southern Iraq. And that would be a very quick 
indicator to us that things have changed dramatically.
    Mr. Franks. Right. Thank you.
    Mr. Chairman, thank you.
    We have got two committees going on at the same time, so I 
have to sprint to the other one, so thank you very much.
    The Chairman. Thank you. Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman.
    And of course I would like to thank our distinguished 
guests for being here today and for your service to your 
country.
    I was just wondering if the general had a scuba bubble 
above his gold jump wings; we just can't see it because he ran 
out of uniform for all of his prestigious ribbons and medals?
    General Allen. You are kind to ask, but I have tried to 
stay above the water most of the time in my career.
    Mr. Palazzo. Common air-breather.
    General Allen. Common air-breather, exactly.
    Mr. Palazzo. I perfectly understand.
    I would like to just say, you know, it is, kind of, 
fascinating that we are talking about Afghanistan, but then the 
subject of China comes up.
    You know, we go to the Pacific region and of course you 
expect to hear China; in every country you go to, the subject 
of China comes up.
    This morning I was talking about the Arctic and China came 
up, you know, about how they are building ice-breakers to 
begin, I guess, going out there to try to lay claims in the 
Arctic Ocean, or wherever, for resources because we know they 
are definitely a resource-driven country. So that is just 
something that this committee, I guess, is going to be hearing 
a lot of.
    But I am glad you all are here today. I have been hearing 
some questions, and I guess it is related to a lot of the 
incidents that have been taking place in Afghanistan by some of 
our American service members. One is the Koran burning; the 
other is the alleged killing of civilians by a member of the 
military, and other things.
    And our concern is, you know, immediately, of course, in 
this 24/7 news cycle and the Internet and things of this 
nature, people are thinking that we are going to turn over 
American service members to the Afghan government to be tried 
and to possibly be punished.
    Of course, personally, I hope you will validate what I am 
thinking, is that that is never going to happen. It is not 
going to happen in these cases. But could you just elaborate on 
that, either one?
    General Allen. The current relationship that we have with 
Afghanistan permits us, at this juncture, to prosecute these 
cases under U.S. law, and we intend to do so.
    Mr. Palazzo. Okay. And that is based on the status of 
forces agreement?
    General Allen. Correct.
    Mr. Palazzo. And so, I mean, is it a possibility that this 
Administration could say, well, that is great, but turn him 
over to the Afghan government?
    General Allen. I am not the one to ask.
    Mr. Palazzo. Okay. I didn't----
    General Allen. From my perspective, I intend to work very 
closely with the United States Army, ultimately, to prosecute 
this case, and we will do it under U.S. law. And I was clear 
with that, in that discussion with President Karzai.
    Mr. Palazzo. Okay. Dr. Miller.
    Dr. Miller. Mr. Palazzo, just to confirm that we have no 
such plans to do so.
    Mr. Palazzo. Okay. But that could be an option, if so 
chosen, that you--there is nothing barring turning over a U.S. 
service member to the Afghan government to be tried?
    Surely our men and women in uniform have some form of 
protection from corrupt government?
    Dr. Miller. As the general mentioned, there is the Status 
of Forces Agreement in which it is understood that we have that 
right, and we have given every indication that that is the way 
that we will proceed.
    Mr. Palazzo. Okay. You know, I am not trying to go anywhere 
with that. I was just curious, because I hear that, and there 
are some concerns, but as of now, we are not going to let that 
happen. That is good. We need to make sure that never happens, 
period. I don't know if we have to do something legislatively 
to codify that.
    Next question--just what is the mood of our young NCOs 
serving in Afghanistan in light of, you know, a decade at war?
    I know some of them may be on their second or third tour, 
some on their first, some of them trying to get into the action 
before it is over. I understand how young military minds 
think--just an overall short opinion?
    General Allen. I asked my sergeant major his view, and his 
view is that the morale is high.
    These troops are focused on a mission; 10 years into this 
conflict, they are as professional as we have ever seen the 
non-commissioned officers of our armed forces, in particular 
the U.S. Army and the United States Marine Corps, who have, on 
a day-to-day basis, been in close contact with the enemy, where 
the benefits or where the real advantage that ultimately 
accrues to us in a counterinsurgency is by small unit non-
commissioned officer and junior officer leadership.
    And they are magnificent, frankly. And after this long in 
this conflict, to see the morale as high as it is, the 
professionalism as high as it is, and as you say, the desire to 
continue to serve, really speaks well for the young men and 
women of our United States.
    Mr. Palazzo. All right. Thank you all. My time has expired.
    The Chairman. Thank you.
    General Allen, I have one final question. There are many 
detainees currently held in the U.S. detention facilities in 
Afghanistan whom the U.S. forces have identified as enduring 
security threats to the United States.
    Some of these detainees are Afghans and some are third-
country nationals. The recent memo of understanding regarding 
the transition of detention operations in Afghanistan does not 
provide a separate plan for Afghan detainees who pose an 
extraordinarily high threat.
    The MOU [Memorandum of Understanding] requires the United 
States to transition all Afghan detainees to the custody of 
Afghanistan within 6 months. The MOU states that Afghanistan 
will consider favorably U.S. input regarding whether to release 
a particular detainee, but given the current posture of the 
Afghan government, this is not very reassuring.
    I am concerned about history repeating itself here. In 
Iraq, we waited until the last minute to deal with this issue 
and that particular example is not one that we should be 
seeking to repeat.
    In light of the new MOU, what is your plan regarding the 
handling of high-value detainees, both Afghans and third-
country nationals, to ensure that these individuals will not 
pose a threat to the United States in the future?
    General Allen. And I will defer to Dr. Miller here in a 
moment. But should there be a disagreement with the Afghans, 
should there be an intention expressed to release one of the 
detainees, ultimately, that they control, if we express our 
desire that they not, they will give it favorable 
consideration.
    If, in fact, they continue to desire to release that 
detainee that question will then go to a bilateral commission 
which has been established within that Memorandum of 
Understanding. The chair on the U.S. side and the chair on the 
Afghan side of the bilateral commission is the Commander of 
ISAF and the Minister of Defense, where we will have the 
conversation ultimately about whether that individual should be 
released or not.
    So I believe we will ultimately be able to resolve this to 
our benefit within the bilateral commission if they don't take 
our initial desire to be their decision ultimately.
    With respect to third-country nationals, that remains to be 
determined. We have not yet addressed that, Chairman, and we 
will do that in the future.
    Dr. Miller. Mr. Chairman, could I add just--everything that 
General Allen said is exactly right. I just want to add to it, 
and that is that in addition to the transition effort that is 
under way being led by General Allen, there is an interagency 
task force that is focused on this question, including on 
third-country nationals and how to deal with high-value 
detainees.
    And we are working very closely with the team that is in-
theater and understand that these issues need to be addressed 
and we need to come up and have a conversation, sir, with you 
and your colleagues as well. It is relatively at the front end, 
but we know that, you know, 6 months is not that much time. So 
we look forward to having that conversation as this work 
progresses.
    The Chairman. Very good. The concern we have is that 
detainees that have been released have returned to the fight, 
and we found that they, in a fairly high percentage, have gone 
back to killing Americans, and we really want to make sure that 
we monitor and avoid that.
    Thank you very much for being here today. I think we have 
cleared up a lot of questions. I hope this is beneficial. I 
think it will be to the American people to understand more 
clearly what is happening in Afghanistan, the progress that we 
are making there.
    Thank you very much.
    And this committee stands adjourned.
    [Whereupon, at 12:43 p.m., the committee was adjourned.]


======================================================================


                            A P P E N D I X

                             March 20, 2012

=======================================================================



=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 20, 2012

=======================================================================


              Statement of Hon. Howard P. ``Buck'' McKeon

              Chairman, House Committee on Armed Services

                               Hearing on

                   Recent Developments in Afghanistan

                             March 20, 2012

    Good morning ladies and gentlemen. The House Armed Services 
Committee meets today to receive testimony from the Acting 
Under Secretary of Defense for Policy, Dr. James Miller, and 
the Commander of the International Security and Assistance 
Force in Afghanistan, General John Allen. Gentlemen, thank you 
for your distinguished service to our Nation during this 
critical moment in Afghanistan, and thank you for joining us 
today.
    The last year has been a consequential time for coalition 
efforts in Afghanistan. During this time period, with the surge 
forces in place, United States and NATO forces have conducted 
major operations to push back the Taliban in the south of 
Afghanistan; launched operations from Afghanistan to kill Osama 
bin Laden and further disrupt Al Qaeda; train thousands of 
Afghan Security Forces so that they can secure their country 
from terrorist and insurgent groups; and return countless 
numbers of civilians to school and to work.
    However, in the last few weeks, the impressive gains that 
the United States and NATO are making in Afghanistan have been 
called into question by some--due to the actions of a rogue 
few. Some Afghan soldiers have taken up arms against ISAF 
soldiers, which could diminish trust among forces that are 
supposed to be partnered. A sober assessment, however, shows 
that partnering is valuable and necessary, there are steps that 
can be taken to minimize such incidents, and that these 
criminal actions are relatively isolated. Moreover, the 
horrific incident of a U.S. Army staff sergeant who allegedly 
took up arms against Afghan civilians also is both isolated and 
a criminal act that should be prosecuted to the full extent of 
the law. These exceptional incidents are not reflective of the 
hundreds of thousands of U.S. soldiers, sailors, airmen, and 
marines who have honorably served in Afghanistan--nor are they 
reflective of the many thousands of Afghan soldiers who are 
being trained and are helping to secure Afghanistan today.
    Additionally, I remain very concerned about the President's 
decision, last summer, to speed up withdrawal of the surge 
troops from Afghanistan, as well as his original announcement, 
in his speech at West Point, for a date certain in 2014 to 
withdraw all U.S. combat forces. These decisions by the 
President have made it increasingly difficult to build up trust 
and confidence with the Afghan institutions that will 
ultimately ensure that the security and political gains by U.S. 
and NATO efforts are sustained into the future.
    Moreover, with our eyes at the exits, I am uncertain 
whether we will be able to achieve the key tenets of 
President's own strategy, due to the constraints that the 
President, himself, has put in place. For example, it has been 
reported in the media that the U.S. and Afghan governments are 
attempting to achieve a negotiated solution with the Taliban; 
and yet, the Taliban continue to operate with impunity out of 
Pakistan because they already know when we will be leaving and 
Pakistan has been unwilling or unable to address those safe 
havens. Furthermore, due to the President's decision to begin 
withdrawing the surge forces early, we increase the risk to our 
forces to effectively address the second part of the 
Afghanistan campaign plan--shifting the main effort to eastern 
Afghanistan and applying military pressure on the Haqqani 
Network, who are responsible for the most dramatic and lethal 
attacks in Afghanistan. What's more, in the absence of 
sustained, public campaign to support the mission in 
Afghanistan--from the White House on down--many have begun to 
question what we're fighting for. With friend and foe alike 
knowing that the U.S. is heading for the exits, our silence is 
likely viewed as a preamble to retreat. And, in warfare, when 
the mission becomes redeployment, rather than mission success, 
the outcome can quickly become disorderly.
    General Allen, I have total confidence in you and your 
command. The challenge in Afghanistan continues to be great, 
but I am certain that we can achieve the United States' core, 
strategic objectives by resolving to provide you with the time 
and resources you need to be successful.
    I look forward to your testimony and insights into the 
challenges and way forward in Afghanistan.

                      Statement of Hon. Adam Smith

           Ranking Member, House Committee on Armed Services

                               Hearing on

                   Recent Developments in Afghanistan

                             March 20, 2012

    Thank you Mr. Chairman, and I would like to thank our 
witnesses for appearing here today. General Allen, Acting Under 
Secretary Miller, thank you for your efforts and long service 
on behalf of our Nation.
    We have made significant progress in achieving our goal in 
Afghanistan to ``disrupt, dismantle, and eventually defeat Al 
Qaeda and to prevent its return to either Afghanistan or 
Pakistan.'' The death of Osama bin Laden and the elimination of 
much of Al Qaeda's senior leadership over the last few years 
has made America safer. On the ground in Afghanistan, our 
military, with our ISAF and Afghan partners, has done 
tremendous work, particularly over the last couple of years, to 
push the Taliban out of the south and southwest of Afghanistan. 
I congratulate our witnesses for their part in these 
achievements. The progress made to date has gone a long way to 
better position the Afghan government, and the Afghan people, 
for success.
    We should be under no illusions, however. Being in a better 
position in Afghanistan is still finding yourself in a very 
difficult spot. Afghanistan is a poor country, with an 
uneducated population, plagued by groups that use violence to 
achieve their goals, and with a government that is often both 
incompetent and corrupt. Fortunately, our mission there is not 
to build a perfect Afghanistan, but solely to help build an 
Afghanistan that is capable of denying the Taliban and their Al 
Qaeda allies a safe place to operate.
    As we consider our strategy over the next several years, it 
is my belief that it is time to lean forward on transitioning 
the responsibility for security to the Afghan National Security 
Forces and the Afghan government. This is happening now--after 
the latest tranche of provinces and districts are transitioned, 
over 50% of the Afghan population will reside areas where the 
Afghan army and police are in the lead to provide security. 
Similarly, all around Afghanistan, U.S. military units 
partnered with Afghan units are allowing the Afghan units to 
increasingly take the lead in planning and leading operations 
while the U.S. units increasingly act in support. I believe we 
need to look for ways to push this process to go as quickly as 
we can safely do so.
    If there is one demonstrable historical truth, it is that 
foreign forces in Afghanistan are destabilizing over time. Our 
troops are doing tremendous work on behalf of the Afghan 
people, but no people would be happy with over 130,000 foreign 
troops carrying out combat operations in their country. 
Increased friction and tension are almost unavoidable, and we 
have seen some of the results of that with the increase in 
killing of coalition forces by members of the ANSF and the 
recent riots over the accidental burning of the Koran. Over 
time the presence of so many foreign troops will also undermine 
the legitimacy of the Afghan government that relies on them. We 
have seen, and are seeing, the impact of this pressure as 
well--President Karzai's recent comments attacking the United 
States, while unfortunate and misguided, almost certainly 
reflect the domestic pressure under which he finds himself as 
his people come to resent the presence of a foreign army. In 
turn, this pressure and the resulting comments reduce the 
reliability of President Karzai as a partner.
    The solution to this dilemma, that over time our large-
scale presence will have diminishing returns, is simple--we 
should accelerate the plans we have already made. The NATO 
Lisbon Conference of 2010 laid out a realistic plan for 
transition. Our challenge now is to look for ways to implement 
it as fast as we responsibly can.
    Our troops and their civilian counterparts from other parts 
of the government have done a great job. With their Afghan and 
ISAF partners, they've largely driven the Taliban from the 
south and southwest of Afghanistan and allowed the opportunity 
for local governance to take root. Across the country, violence 
levels are down. U.S. and ISAF forces have built the Afghan 
National Security Forces from an anemic 155,000 in November of 
2008 to about 330,000 now and a planned level of 352,000 this 
October. Al Qaeda has been driven from Afghanistan and their 
senior leadership has been decimated in Pakistan. This is 
amazing work. But after 10 years of war, and great cost to both 
the American and Afghan people, it is time to find additional 
ways to put the Afghans in charge of their own fate as quickly 
as we responsibly can and bring our troops home.


[GRAPHIC] [TIFF OMITTED] 73789.001

[GRAPHIC] [TIFF OMITTED] 73789.002

[GRAPHIC] [TIFF OMITTED] 73789.003

[GRAPHIC] [TIFF OMITTED] 73789.004

[GRAPHIC] [TIFF OMITTED] 73789.005

[GRAPHIC] [TIFF OMITTED] 73789.006

[GRAPHIC] [TIFF OMITTED] 73789.007

[GRAPHIC] [TIFF OMITTED] 73789.008

[GRAPHIC] [TIFF OMITTED] 73789.009

[GRAPHIC] [TIFF OMITTED] 73789.010

[GRAPHIC] [TIFF OMITTED] 73789.011

[GRAPHIC] [TIFF OMITTED] 73789.012

[GRAPHIC] [TIFF OMITTED] 73789.013

[GRAPHIC] [TIFF OMITTED] 73789.014

[GRAPHIC] [TIFF OMITTED] 73789.015

[GRAPHIC] [TIFF OMITTED] 73789.016

?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 20, 2012

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 73789.017
    
    [GRAPHIC] [TIFF OMITTED] 73789.018
    
    [GRAPHIC] [TIFF OMITTED] 73789.019
    
    [GRAPHIC] [TIFF OMITTED] 73789.020
    
    [GRAPHIC] [TIFF OMITTED] 73789.021
    
    [GRAPHIC] [TIFF OMITTED] 73789.022
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 20, 2012

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MRS. DAVIS

    General Allen. Ensuring the morale of US service members remains my 
utmost concern. While setbacks such as the Quran burning or the killing 
of seventeen Afghan civilians allegedly by US service members are 
shocks to our sense of morality, the individual Soldier, Sailor, 
Airman, and Marine knows that such isolated actions are an anomaly and 
are in no way representative of the great work being accomplished every 
day in Afghanistan. Despite such setbacks, United States service 
members serving in Afghanistan have a sense of mission accomplishment 
and understand the long-term benefits of their endeavors to the future 
of Afghanistan and to the security of the United States.
    There is a concerted effort to minister to the physical, 
behavioral, mental, emotional, and spiritual needs of service members 
as they redeploy from the CJOA-A to home stations. The USFOR-A 
Surgeon's Office employs two tools in particular to aid in 
redeployment: 1) Down Range Assessment Tool (D-RAT) and 2) the Post 
Deployment Health Assessment (PDHA). The D-RAT is designed to assist 
leaders in supporting service members. Service members who show 
increased risk factors will receive additional consideration during 
Soldier Readiness Processing (SRP) visits. Information from the D-RAT 
is provided to medical staff working directly with SMs during the SRP. 
If a SM has been identified as having elevated risk, it prompts plane-
side or other immediate behavioral health support. The PDHA is a health 
survey similar to the pre-deployment health assessment, but it also 
focuses on specific deployment related health concerns. The PDHA may be 
conducted in the last 30 days of deployment but must be completed NLT 
30 days post deployment. The SM's deployment history and a complete 
electronic medical record are used in an overall, individual 
assessment. If concerns are raised, there is a mandatory meeting with a 
behavior health provider.
    In addition, the USFOR-A Chaplain's Office tasks Religious Support 
Teams (RSTs) throughout the CJOA-A, to provide a Suicide Awareness 
Refresher briefing and a Redeployment, Reunion, and Reintegration 
briefing with all redeploying service members. Finally, each of the 
Services has developed programs enabling service members to transition 
during the redeployment phase to the culture of their respective branch 
and life at home station. [See page 19.]
                                 ______
                                 
       RESPONSE TO QUESTION SUBMITTED BY MR. TURNER AND MR. CRITZ
    General Allen. Depending on which estimate one cites, Afghanistan's 
poppy cultivation peaked in 2007 with 193,000 hectares (UNODC) or 2004 
with 206,700 hectares (US Government). In 2011, 131,000 hectares 
(UNODC) or 115,000 hectares (US) of poppy were cultivated in 
Afghanistan. It is too early to estimate how much poppy has been 
cultivated in 2012.
    Farmers' planting decisions in the absence of poppy cultivation 
vary widely based on location and socioeconomic group. For instance, in 
Helmand Province, where there have been dramatic reductions in poppy 
cultivation since the establishment of the Helmand Food Zone (HFZ) in 
2008, transitioning to sustainable alternatives has seen mixed success. 
Income diversity largely remains restricted to areas around major urban 
centers where there are markets for licit crops and opportunities for 
nonfarm income. Cultivation of poppy has reportedly increased outside 
of the HFZ, enabled by high opium prices and the lack of sharecropping 
opportunities inside the HFZ where less labor intensive crops are being 
grown.
    ISAF supports the development of the Counternarcotics Police of 
Afghanistan (CNPA), the CN component of the ANP, overseen by the 
internationally funded CNPA Development Unit. The CNPA Tactical 
Operations Center supports this development through training, as well 
as developing a capacity to plan and support CNPA-directed interdiction 
missions integrated with CNPA special units. These highly-trained CN 
units, including the National Interdiction Unit (NIU), Sensitive 
Investigative Unit (SIU), Technical Investigative Unit (TIU), and Air 
Interdiction Unit (AIU) all fall under the CNPA. The NIU is a 470-
person DEA-mentored tactical element capable of conducting interdiction 
operations in a high-threat environment, supporting CN operations with 
a full range of capabilities. Though partnering with ISAF remains 
strong, the NIU has demonstrated an ability to operate independently. A 
self-driven, 77-person unit with superior investigative skills, the SIU 
carries out complex CN investigations using intelligence developed by 
the TIU, a unit comprised of 9 vetted officers and 200 contract 
linguists, which performs court-authorized judicial wire intercepts. 
Members of the SIU also serve as part of a Financial Investigative Team 
at the Afghan Threat Finance Cell. Finally, the AIU plays a strategic 
role by enabling elite Afghan CN law enforcement personnel and their 
DEA partners to conduct missions in dangerous areas and remote terrain. 
Operational coordination among the various specialized units has 
continued to improve, as reflected in a number of joint operations.
    Counternarcotics and other specialized training, as provided by the 
Counternarcotics Training Academy (CNTA) is a key element of these 
capacity building efforts. The CNTA, run by NTM-A, provides basic 
training to all CNPA officers, designed to provide fundamental 
instruction to effectively investigate and prosecute narcotics crimes. 
The CNTA continues to develop a train the trainer program to build the 
capacity of an independent Afghan training center. The initiative is 
considered critical for Afghanistan's long-term capability to address 
narcotics trafficking and organized crime. In addition, UNODC-created 
Mobile Training Teams provide basic intelligence training to provincial 
CNPA and are supplemented by a DEA-established Regional Training Team 
that provides instruction for the specialized units. [See page 38.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. CONAWAY
    Dr. Miller. [The information was not available at the time of 
printing.] [See page 38.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MS. TSONGAS
    Dr. Miller. The U.S. Government has been clear regarding the 
importance of women's rights in Afghanistan. President Karzai 
reaffirmed his personal commitment to ensuring that women enjoy the 
protections enshrined in Afghanistan's Constitution.
    Many Afghan women are worried that a negotiated settlement that 
includes a Taliban role in Afghan government might jeopardize their 
rights. As we've said before in Kabul, London, Bonn, New York, and 
Washington: the United States will insist that this not happen.
    The U.S. goal for Afghan reconciliation is for the Afghan 
Government and Taliban to talk about the future of their country. 
Negotiations must include women, as well as ethnic minorities and 
members of civil society. Insurgents who want to reconcile must abide 
by Afghanistan's Constitution and the rights enshrined in it, including 
women's rights. [See page 33.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. CRITZ
    General Allen. The Government of the Islamic Republic of 
Afghanistan (GIRoA) is well-poised to conduct the upcoming 2014 
elections, which will mark the transfer of political authority from the 
present administration to the next. It will be a key time of transition 
in the country. To be sure, corruption remains a problem in GIRoA and 
various factions will jockey for power and influence. However, despite 
challenges to its authority, this present government has held together. 
President Karzai has said publicly and privately that he will adhere to 
the constitutional term limit and that he will not seek a third term. 
While this Afghan Government is young and has experienced expected 
growing pains, there is no tangible indication at this time that the 
election will precipitate political fracture or violence.
    The expanding and increasingly effective Afghan National Security 
Forces (ANSF) will be the most important guarantors of a peaceful and 
productive transfer of political authority throughout the 2014 election 
process. Those forces will be in charge of security on Election Day 
with the International Election Commission, United Nations Development 
Program, and ISAF standing in support. The Afghan National Police (ANP) 
will serve as the inner cordon in highly populated areas, and the 
Afghan National Army (ANA) will guard the outer rings of those 
population centers to guard against external threats and interference.
    The ANSF has proven to be an increasingly effective and battle-
tested force. They proved able to provide security for the Loya Jirga 
that took place in Kabul last November, which was an enormously 
important and logistically challenging event. In addition, in the wake 
of the unfortunate incident regarding the mishandling of religious 
materials this February, and the violent protests that followed, the 
ANSF exhibited measured restraint, sound judgment, professionalism, and 
great courage in protecting the right to free speech of their fellow 
Afghans, their own security; and, they protected us as well. [See page 
40.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 20, 2012

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. REYES

    Mr. Reyes. Currently, almost $2 billion in aid to Pakistan is on 
``hold.'' What would the Pakistanis have to do to start this aid 
flowing again? Do you consider it likely that they would do this?
    Dr. Miller. [The information was not available at the time of 
printing.]

    Mr. Reyes. One of the things Congress is looking at is the future 
of aid and assistance programs to the Pakistani military. What are your 
views on the necessity to continue providing aid to the Pakistani 
military? Should we continue funding this, and if so, what constraints 
should we place on the aid?
    General Allen. Pakistan and Afghanistan share a 1,510 mile border 
and extensive cultural and blood ties through the Pashtuns that live in 
both countries. As the Commander of ISAF and US Forces Afghanistan, we 
have sought a mutually cooperative relationship with the Pakistani 
military--important for cross border coordination and to the 
counterinsurgency that occurs on both sides of the border. Pakistan has 
also suffered approximately 32,000 civilian and military casualties in 
its own COIN campaign. Coordination and cooperation amongst the Afghan 
National Security Forces, Coalition forces, and Pakistani military is 
critical to the successful neutralization of the insurgency on both 
sides of the border and creates habits of cross border coordination 
between Afghanistan and Pakistan that must be sustained long after the 
departure of ISAF.
    Mr. Reyes. Currently, almost $2 billion in aid to Pakistan is on 
``hold.'' What would the Pakistanis have to do to start this aid 
flowing again? Do you consider it likely that they would do this?
    General Allen. The US remains committed to a strong and mutually 
respectful relationship with Pakistan. I support that policy. Decisions 
on delivering civilian and security assistance to Pakistan in support 
of that relationship are the province of the State Department and the 
civilian leadership of the Department of Defense and are outside of my 
mandate as COMUSFOR-A.
    Mr. Reyes. We have been at war for ten years. Is there mission 
fatigue in NATO and what steps are we taking to ensure coalition 
support through 2014?
    General Allen. NATO is the preeminent security alliance in the 
world today. With NATO's support we have formed the largest and most 
capable warfighting Coalition in modern history, which includes all 28 
NATO members as well as 22 other nations. At Bonn, Coalition members, 
acting in concert with the rest of the International Community, called 
for a ``Transformational Decade'' to continue the task of building a 
prosperous Afghan economy. I regularly meet with Ministers of Foreign 
Affairs, Ministers of Defense, Chiefs of Defense, Ambassadors, Senior 
National Representatives, and NATO consultative bodies. In each 
meeting, we discuss the contributions each country can make within the 
limits of their own resources and political environment. That ISAF 
represents a 50 nation Coalition demonstrates that it is not just the 
US that has a vital stake in ensuring that Al-Qaeda, and its allies and 
affiliates, are unable to spread their web of terror around the globe. 
The solidarity of the Coalition is an important factor in our success 
thus far.
    At Chicago, NATO and Coalition leaders will discuss how we can 
support a sustainable and sufficient ANSF and how we can strengthen the 
NATO-Afghanistan Enduring Partnership. Some Coalition members have 
raised their troop contributions, while others are reinvesting their 
combat formations into trainers and advisors. Furthermore, the UK, 
France, and Italy have signed strategic partnership agreements 
indicating their commitment to Afghanistan beyond 2014.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. Mr. Miller, given the evolving security environment 
and landscape in the region, do you believe we should engage in a long-
term partnership policy, and what should our military presence in the 
region look like in 2014 and beyond?
    Dr. Miller. The United States has recently finalized a long-term 
strategic partnership agreement with the Government of Afghanistan. 
This important agreement will be a framework for a post-2014 U.S. 
military presence that will include personnel involved in training/
advising/assisting the Afghan National Security Forces, as well as 
Special Operations forces continuing counterterrorism cooperation in 
Afghanistan. We will encourage our coalition partners to provide 
similar long-term support to help set conditions for successful 
transition to Afghan security lead by the end of 2014, with a much 
smaller U.S. and coalition presence.

    Mr. Langevin. General Allen, IEDs continue to be the Taliban weapon 
of choice in the theater; how is the U.S. military addressing this 
threat?
    General Allen. The U.S. Military, as well as our Coalition and 
Afghan National Security Forces (ANSF) partners, follow a Counter-
Improvised Explosive Device (C-IED) strategy based upon three lines of 
operation that are support by intelligence and understanding. The U.S. 
defines these lines of operations as: Train the Force (TtF), Defeat the 
Device (DtD); and Attack the Network (AtN).
    First, we are training the force and we continue to develop the 
force structure to address IEDs, both of which are Service 
responsibilities. We all work together to capture and distribute 
lessons learned and best practices. The result of this cooperative 
effort between the Services, CENTCOM, and the Theater is that our 
troops arrive in theater well-trained on how to counter the latest 
enemy tactics and techniques. Second, we defeat the device, which is 
primarily defensive in nature and focuses on how to stop the insurgent 
achieving his aim with an IED. It consists of several Force Protection 
measures, which includes appropriate techniques, tactics, and 
procedures, as well as counter measures such as vehicle design and 
armor. The Mine Resistant Ambush Protected (MRAP) vehicle is a good 
example of this. This also includes the detection of IEDs once they are 
emplaced ranging from human eyesight on the ground to airborne ISR 
assets. Finally, we are attacking the network by identifying 
vulnerabilities within the insurgent network. JIEDDO provides 
operations and intelligence integration support.
    Equally important are the ANSF and their increasing capability to 
defeat IEDs. We are supporting the development of Route Clearance and 
Explosive Ordnance Disposal capabilities for the ANSF. Efforts are also 
underway to develop Afghan Biometrics, Forensics, and Exploitation 
capability in support of the rule of law, so those who provide IEDs can 
be criminally prosecuted. Afghan SOF are increasingly attacking the 
network. We are educating the ANSF and ALP to detect the device, and 
over time, defeat and dispose of the device and training and 
improvement of capabilities continues. We are also working with GIRoA 
on the development of an Afghan C-IED Strategy.
    Mr. Langevin. In your opinion, is enough being done to protect our 
forces from the threat of IEDs?
    General Allen. The Department of Defense (DOD), through the Joint 
IED Defeat Organization (JIEDDO) and complementary Service programs, is 
doing a great job getting the best C-IED equipment and training to our 
forces. Despite a high number of IED attacks, these efforts have 
contributed to a low rate of effective enemy attacks. The combination 
of training, equipment, and intelligence based operations are enabling 
our troops to find a greater number of IEDs prior to detonation or 
surviving after a detonation. Additionally, the DOD is investing 
Research and Development dollars to find ways to pre-detonate, detect, 
and neutralize IEDs before detonation or to mitigate the effects 
following detonation. We are defeating the device with high rates of 
detection and clearance. We're better protecting dismounted and mounted 
troops with foot mobile Counter Remote Control IED Electronic Warfare 
devices and with protective undergarments, and improved the armor on 
MRAPs, and MATVs. We will continue to do all we can to fight this 
threat as 66% of US casualties in 2011 were caused by IEDs.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. TURNER
    Mr. Turner. Over the past several years I focused my attention on 
the Afghan Narcotics trade as a major source of funding for insurgents. 
In 2010 UNODC (The United Nations Office of Drugs and Crime) published 
a study showing that opium production rapidly increased from 2006 to 
2010. In a recent correspondence you told me that ``[t]he narcotics 
trade and its linkage to the insurgency contribute to regional 
insecurity, corruption, volatility in the rule of law, and stagnation 
of economic development.'' I compliment you on your leadership on these 
efforts as they appear to have experienced success. UNODC's (The United 
Nations Office of Drugs and Crime) April 2011 winter poppy assessment 
demonstrated a decrease in 2011 opium production. While I find these 
trends somewhat reassuring, I am concerned that the premature drawdown 
of U.S. and ISAF forces in Afghanistan will reverse this trend and 
allow the insurgents to regain this lucrative source of funding. In 
fact, just 2 weeks ago, General Mattis stated that ``we will create an 
Afghan national army, Afghan national police that has this capacity if 
we continue on the track we are on right now.'' Now, General Allen, are 
we still pushing these programs to the degree that you indicated in 
your response that we received in September or are we still seeing the 
same positive results? Do you anticipate that these positive results 
will continue as we draw down our forces? Does the Afghan army have the 
capacity to address these counternarcotic efforts?
    And if this Administration ignores the advice of its combat 
commanders and decides to accelerate the withdrawal of forces, what do 
you anticipate happening to the counternarcotics efforts in Afghanistan 
in the future? Will we continue to see this lower level of poppy 
production?
    Given the critical role that narcotics play in funding the 
insurgency, wouldn't you agree that this is an important matter for 
discussion in this year's NATO Summit in Chicago?
    General Allen. ISAF continues to support CN efforts to target and 
disrupt the narcotics cycle, as well as those individuals directly 
associated with it. For instance, in 2011, ISAF and Afghan partners 
seized 15,685 kg of morphine, representing a 22 percent increase over 
the same period last year. Wet precursor chemical seizures were up 778 
percent, dry precursor chemical seizures were up 1,000 percent, and 
marijuana seizures were up 1,400 percent.
    ISAF is working closely with GIRoA to enhance Afghan CN capacity 
and institutions to enable transition of effort by 2014. ISAF supports 
GIRoA in implementing its National Drugs Control Strategy (NDCS), 
focused on GIRoA's s four national CN priorities: targeting traffickers 
and their backers, strengthening and diversifying legal rural 
livelihoods, reducing the demand for illicit drugs while improving the 
treatment of drug users, and developing state CN institutions at the 
central, provincial, and district levels. ISAF also continues to 
support and mentor a number of Afghan units so that they can serve as 
the lead components in CN operations. For example, the CN Police of 
Afghanistan (CNP-A) are mentored by the US DEA and UK Serious Organized 
Crime Agency (SOCA) and the General Directorate of Police Special Units 
is supported and mentored by ISAF SOF. These combined efforts, in 
conjunction with security provided by an increasingly capable and 
effective ANSF, will help maintain the positive trajectory of 
countering the illicit narcotics trade in the country.
                                 ______
                                 
                   QUESTION SUBMITTED BY MS. TSONGAS
    Ms. Tsongas. I remain concerned by the repeated incidents of Afghan 
soldiers turning their guns on coalition forces. Since 2005, more than 
50 ISAF troops had been killed and 48 wounded by Afghan troops.
    According to USA Today, in a January 17 article (``ISAF limits 
details of troops killed by Afghans''), ISAF no longer responds 
directly to requests for details on cases where Afghan troops turn 
their weapons on NATO troops. The article quoted a Navy Lieutenant 
Commander Badura, who said this change in policy was implemented in the 
latter half of 2011, and that the practice now is for each coalition 
partner to formulate its own policies on releasing this information.
    However, General Mattis took issue with this assessment the other 
week when he testified before our Committee, and the Committee staff 
has received conflicting reports on what the current policy is.
    Can you please clarify for the record what the current ISAF policy 
is, and the rationale for that policy? How does this policy reflect our 
concerns regarding our Afghan partners?
    General Allen. Gen. Mattis' testimony is accurate. The current ISAF 
policy is to release information on green-on-blue incidents to the 
public. It is also our policy to withhold the release of information, 
as it pertains to the service members involved, until host nation 
notification has been accomplished and next-of-kin notification 
completed. The release of information surrounding green-on-blue 
incidents will be accomplished once confirmation of the information 
surrounding these types of incidents is verified.
    After careful assessment, ISAF concluded that discussing green-on-
blue incidents was of public interest. Our policy ensures ISAF is open 
and transparent concerning green-on-blue incidents involving its 
personnel. This policy has no affect on our relationship with our 
Afghan partners; it is carried out in coordination with them in order 
to ensure all information obtained from green-on-blue incidents is 
factual and accurate before being publicly released.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WITTMAN
    Mr. Wittman. General, you currently have over 90,000 U.S. troops in 
country that will take you through this fighting season. After a 
significant drawdown this fall you will have 68,000 U.S. ``boots on the 
ground'' for the fighting season in 2013. What risk are you incurring 
by this slow transition to ANSF lead in Afghanistan operations? Will 
you need 68,000 U.S. troops to execute the 2014 fighting season before 
completing the drawdown and the Afghan government assumes the lead in 
December 2014?
    General Allen. The conditions for recovering US surge forces have 
been created by the growth of the ANSF and their improving 
capabilities. Our Campaign plan is based on the Transition of lead 
security responsibility to the ANSF, and support of the overall 
Transition process to achieve our objectives as laid out by the NATO 
Summit at Lisbon in 2010.
    Developing a sound mitigation strategy for the transfer to ANSF 
lead was a key part of our Campaign planning efforts. We believe that 
our Campaign plan is working. The ANSF are moving to the fore across 
the country, and we are finding two things as this occurs: first they 
are better than we expected them to be; and second, they are better 
than they thought they would be.
    Security Force Assistance enables us to continue to support the 
ANSF as they move into the lead. The conversion of a combat force that 
conducts Security Force Assistance to a Security Force Assistance 
organization with combat capabilities is part of this process and the 
next logical phase of our counter insurgency campaign.
    After the conclusion of the 2012 fighting season and the 23,000 
Phase II Troop Surge Recovery, ISAF will examine the state of the 
insurgency, the development of the ANSF, and the anticipated 
operational requirements for 2013. ISAF intends to provide through the 
chain of command, to the President, and the Secretary General, 
recommendations on the kind of combat power needed for 2013, which will 
include an estimate of the US force requirements.
    Mr. Wittman. General, last year your predecessor General Petraeus 
testified before this committee saying, ``As a bottom line up front, it 
is ISAF's assessment that the momentum achieved by the Taliban in 
Afghanistan since 2005 has been arrested in much of the country and 
reversed in a number of important areas. However, while the security 
progress achieved over the past year is significant, it is also fragile 
and reversible. Moreover, it is clear that much difficult work lies 
ahead with our Afghan partners to solidify and expand our gains in the 
face of the expected Taliban spring offensive.'' General, with the 
effort to draw down our forces by the end of 2014, are we still willing 
to concede that our progress is fragile and reversible? It seems that 
outside of the Taliban and the terrorist networks operating in and 
around Afghanistan our biggest enemy is time. Do you have enough time 
to execute a sound, measured, responsible drawdown while still 
maintaining a force capable of training the ANSF to take the lead and 
keep the Taliban and terrorist networks from resecuring a foothold in 
Afghanistan?
    General Allen. The Coalition and ANSF have made significant gains 
and continue to make progress. There are several factors that will make 
this progress more durable, such as the commitment of NATO and the 
deterrence of regional actors. A Strategic Partnership between the US 
and GIRoA also ensures a long-term commitment to Afghanistan over time, 
and it helps to ensure the progress and gains are irreversible.
    Some of the other factors include the increasing capability of the 
ANSF and the state of the insurgency. The ANSF must move to the fore, 
gain its full capability, and be fully fielded on the battlefield. 
During the past 12 months, Afghan National Security Forces have 
expanded from 276,000 to 330,000, and they will reach their full 
strength of 352,000 ahead of the 1 Oct 12 goal. The expansion and the 
professionalization of the ANSF enables the recovery of the remaining 
23,000 U.S. surge forces this fall, and it makes security transition 
complete by 31 December 2014. The degradation of the insurgency by the 
ANSF and Coalition forces is another factor that is helping to solidify 
our gains.
    Mr. Wittman. General, you mentioned that ``throughout history, 
insurgencies have seldom been defeated by foreign forces. Instead, they 
have been ultimately beaten by indigenous forces. In the long run, our 
goals can only be achieved and then secured by Afghan forces. 
Transition, then, is the linchpin of our strategy, not merely the `way 
out.' '' General, how do we keep that linchpin from breaking? As you 
mentioned, this has been a long, difficult, and costly campaign, how do 
we ensure that this transition is executed in a manner where enough 
time and space is created to allow the ANSF and the Afghan government 
to take the lead in their country?
    General Allen. The time and space required to optimize the chances 
of success through Transition is being created by conducting the 
process in five, sequential Tranches, two of which are already underway 
and the third is in final development. Each province is evaluated, 
initially at the district level, for suitability to begin transition. 
Integral to this process are the individual implementation plans that 
are written in coordination with GIRoA. They address the three pillars 
of Security, Governance and Development, with Rule of Law considered 
under the Governance pillar. The plans identify critical issues in each 
of these three pillars that need to be mitigated or addressed in order 
to establish irreversible security. Areas that are in Transition have 
Afghans in the lead, with Coalition partners providing varying degrees 
of support. The support is modified as the ANSF increase their 
capability; Coalition combat forces move from being partners or mentors 
to advisors while at the same time providing key enabler support.
    Planning for Tranche three commenced in February 2012, and 
implementation is scheduled to begin in May 2012. All of Afghanistan 
will be under Afghan security lead, supported by ISAF partners, 
advisors and enablers, by the latter part of 2013. This will provide at 
least 18 months for final Transition areas to fully develop effective 
forces before security is handed over to GIRoA on 1 January 2015. Each 
area in the process of Transition is closely monitored by ISAF forces 
for signs of regression. There has not been any regression in Tranche 
one and two areas; in fact, security has markedly improved in most of 
these areas.
    Mr. Wittman. General Allen, with regard to the troop drawdown 
strategy, what are specific conditions on the ground, relating to both 
Afghan National Security Force capabilities and the capabilities of the 
enemy you will be examining to manage the U.S. troop drawdowns? What 
are the largest gaps in the capabilities of the Afghan National 
Security Force today that need to be improved by 2014 for the Afghan 
security forces to maintain a stable Afghanistan?
    General Allen. The overall troop draw down strategy depends on the 
growing capabilities of the ANSF and the decreasing capabilities of the 
enemy. Planning continues to determine future force level requirements 
which incur the least amount of risk to the development of the ANSF, 
the accomplishment of the Campaign Plan objectives, and the transition 
of security responsibility from ISAF to ANSF.
    As the ANSF move increasingly into the lead we are discovering that 
they are better than we thought they would be and they are better than 
they thought they would be. The ANA and ANP recruiting growth have 
exceeded expectations, and the ANSF will achieve its 352K manpower goal 
before October 2012. The initial focus for the ANSF 352K increase was 
building combat capability and leveraging ISAF enablers to support the 
ANSF. This decision delayed the development of ANSF enablers. 
Therefore, ISAF is increasingly focusing on development of ANA 
enablers, in particular logistics and CASEVAC capabilities. The gradual 
transition process from ISAF to ANSF led security ensures the ANSF are 
capable, properly equipped, resourced, and trained to operate 
independently. The drawdown of Coalition forces occurs as the ANSF 
capabilities increase and their level of required ISAF support 
diminishes.
    Mr. Wittman. General, in light of the new Afghanistan detention 
Memorandum of Understanding, what is your plan regarding the handling 
of high-value detainees, both Afghans and Third Country Nationals, to 
ensure that these individuals will not pose a threat to the United 
States in the future?
    General Allen. In accordance with paragraphs four and six of the 
Memorandum of Understanding (MOU), the US is to transfer to 
Afghanistan, Afghan nationals held by it at the Detention Facility in 
Parwan (DFIP). The MOU does not require the U.S. to transfer third 
country nationals to Afghanistan. For now, third country nationals will 
remain in the custody of U.S. forces at the DFIP until their further 
disposition is worked out by the U.S. Government, in accordance with 
U.S. law and policy.
    Under paragraphs four, five, eight and eleven of the MOU, Afghan 
nationals transferred to Afghanistan are to be prosecuted or held in 
administrative detention consistent with international humanitarian 
law.
    Afghanistan is to take all necessary steps, consistent with 
international humanitarian law, to ensure that detainees transferred to 
it are prevented from engaging in or facilitating terrorist activity so 
as to ensure that they do not pose a continuing threat to Afghanistan, 
the international community, or the United States.
    Under paragraph nine of the MOU, Afghanistan is to consult with the 
U.S. before releasing any detainee, and, if the U.S. provides its 
assessment that continued detention is necessary to prevent the 
detainee from engaging in or facilitating terrorist activity, 
Afghanistan is to consider favorably such assessment.
    Most importantly, under paragraph twelve of the MOU, if Afghanistan 
still desires to purse a release, the matter is referred to a Bilateral 
Committee composed of the Commander, U.S. Forces-Afghanistan, and the 
Afghan Minister of Defense, and those two senior officials take the 
decision on whether to release (or not), after making a risk assessment 
consistent with Additional Protocol II of 1977 to the Geneva 
Conventions of 1949.
    This means that, ultimately, no high risk detainee can be released 
without the consent of the senior most US military official in 
Afghanistan.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. CRITZ
    Mr. Critz. With regard to the sustainability of Afghan National 
Security Forces, I noticed in the reporting that ANSF is going to be 
about 352,000 at some point, ANA being 195,000 and ANP being about 
157,000. Is the growth, development, and expertise of non-commissioned 
and junior officers sufficient to support a force of this size? Going 
forward, is the economy of Afghanistan strong enough to support a total 
force of this size?
    General Allen. The ANSF are expected to reach the surge-strength 
goal of 352,000 by October 2012. There is sufficient growth among non-
commissioned officers (NCO) and junior officers to support this force, 
although growth has not been as fast as we would like in some areas. It 
will take time to generate and effectively utilize a capable senior NCO 
cadre, since NCOs need to have experience in order to earn the 
requisite degree of trust and respect to be fully effective. The ANA 
and ANP currently have significant shortages in the NCO ranks based on 
the needs of the 352,000 surge force, but these shortages will be 
reduced over time. The ANA and ANP are both short NCOs, primarily among 
the senior NCOs; this gap will be filled in the coming eighteen months. 
The fielded force of the ANA has a shortage of approximately 2,300 
officers, of which 2,100 are junior officers (lieutenants and 
captains). We anticipate that the numbers in the training pipeline are 
sufficient to fill this gap. There is sufficient training, 
developmental, and leadership capacity to support the 352,000 surge 
force. Training courses provide ANA officers and NCOs with basic and 
specialty skills prior to their assignment to the fielded force. The 
initial training for the ANP NCOs is focused on basic skills with 
pillar-specific (e.g. uniformed police, border police, national civil 
order police) skills woven into their course of instruction. The 
initial training for ANP officers is general, with pillar-specific 
instruction conducted following their graduation from the initial 
course. The estimated annual cost of the 352,000 surge force following 
the procurement of all capital infrastructure and equipment will be 
about $6B per annum. The Afghan economy will not be strong enough to 
fiscally support a surge force of this size without significant 
financial assistance. Given that the force strength of 352,000 will 
constitute a surge force, the ANSF Plan of Record planned for a post-
2015 ANSF that will be smaller in force size. The planned force will be 
capable of combating the range of likely future threats, while 
remaining fiscally sustainable with International Community assistance.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. YOUNG
    Mr. Young. Secretary Miller, what should Congress be looking for in 
the next year and a half? What benchmarks should be examined in 6 
months, 1 year and 18 months? Will meeting those benchmarks result in 
victory?
    Dr. Miller. ISAF conducts a quarterly assessment of the status of 
the Campaign Plan in Afghanistan. DOD uses these metrics to inform its 
Section 1230 Report on Progress Towards Stability in Afghanistan, which 
is provided to Congress every six months. This Report includes DOD's 
assessment of progress in the Campaign Plan, Afghanistan National 
Security Forces Development, Transition, Security, Governance and 
Development, Regional Engagement, and Counternarcotics. We will 
continue to provide this Report so that Congress can get a holistic 
look at progress in Afghanistan over time. Additionally, Section 1221 
of the FY 12 NDAA directs DOD to include ANSF benchmarks in the Section 
1230 Report. The Department is currently preparing a benchmark annex to 
the April 2012 Report and plans to fully incorporate the Section 1221 
requirement into the October 2012 report.

    Mr. Young. General Allen, I worry that to complete our mission U.S. 
Forces have been given a number and asked what will it buy rather than 
being asked what they need and being told how much it costs. How have 
we tied our resources to a winning strategy?
    General Allen. ISAF has engaged in extensive planning to determine 
the resources required for a strategy for success in Afghanistan. 
Several notable examples are provided below.
    Last fall, ISAF conducted an extensive planning process to update 
our campaign. The new campaign plan integrated Transition to Afghan 
security lead, ANSF development and U.S. surge recovery. After the 
conclusion of the 2012 fighting season and the 23,000 Phase II Troop 
Surge Recovery, ISAF will examine the state of the insurgency, the 
development of the ANSF, and the anticipated operational requirements 
for 2013. ISAF intends to provide through the chain of command, to the 
President, and the Secretary General, recommendations on the kind of 
combat power needed for 2013, which will include an estimate of the US 
force requirements.
    In the near-term, the development of the ANSF is ahead of schedule. 
It currently stands at approximately 330,000 personnel, and it will 
reach 352,000 troops ahead of the 1 October 2012 goal. The expansion 
and the professionalization of the Afghan security forces enables the 
recovery of the remaining 23,000 U.S. surge forces this fall, enables 
ISAF and the ANSF to apply continued pressure on the Taliban, and makes 
possible security Transition to the Afghans in accordance with the 
Lisbon mandate.
    Mr. Young. General Allen, has the incorporation of middle-ranking 
Taliban personalities into the Joint Priority Effects List (JPEL) had a 
significant effect on the overall insurgency in Afghanistan?
    General Allen. The incorporation of middle-ranking Taliban 
personalities in the Joint Priority Effects List (JPEL) has degraded 
the insurgency's capability and capacity, particularly in disrupting 
the planning for high profile attacks. The insurgency retains the 
capacity to replace low to mid-level commanders and fighters through 
its extensive support network within Pakistan, making many effects 
temporary. Nonetheless, the continual short-term disruptions are an 
important aspect of the campaign, as it buys space and time to further 
develop the ANSF and the Afghan Special Forces, and it applies pressure 
across enemy networks that constrain their effectiveness.
    Beyond disrupting specific plots, JPEL operations also challenge 
insurgents' ability to maintain leadership continuity, inhibit 
insurgency adaptation, and stress command and control. It is noteworthy 
that the insurgency has migrated to more asymmetric tactics (IEDs, 
indirect fire attacks, and assassinations), since these types of 
tactics minimize direct contact with security forces and require lower 
quality mid-level leadership to sustain.
    Inclusion of mid-level insurgent commanders on the JPEL allows 
Battle Space Owners (BSO's) to target insurgent leaders under current 
ROEs. Without this latitude, BSOs would be limited in their ability to 
target and detain insurgents.

                                  <all>

</pre></body></html>
